<html>
<title> - [H.A.S.C. No. 113-62]DEPARTMENT OF DEFENSE DEVELOPMENT AND INTEGRATION OF AIR-SEA BATTLE STRATEGY, GOVERNANCE AND POLICY INTO THE SERVICES'ANNUAL PROGRAM, PLANNING, BUDGETING AND EXECUTION (PPBE) PROCESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-62]

     DEPARTMENT OF DEFENSE DEVELOP- MENT AND INTEGRATION OF AIR-SEA
    BATTLE STRATEGY, GOVERNANCE AND POLICY INTO THE SERVICES' ANNUAL
       PROGRAM, PLANNING, BUDGETING AND EXECUTION (PPBE) PROCESS

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 10, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE

 85-326                    WASHINGTON : 2014                                                                                                                                                                       
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>  













             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
                 Heath Bope, Professional Staff Member
                Douglas Bush, Professional Staff Member
                         Nicholas Rodman, Clerk

























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, October 10, 2013, Department of Defense Development and 
  Integration of Air-Sea Battle Strategy, Governance and Policy 
  into the Services' Annual Program, Planning, Budgeting and 
  Execution (PPBE) Process.......................................     1

Appendix:

Thursday, October 10, 2013.......................................    27
                              ----------                              

                       THURSDAY, OCTOBER 10, 2013
  DEPARTMENT OF DEFENSE DEVELOPMENT AND INTEGRATION OF AIR-SEA BATTLE 
  STRATEGY, GOVERNANCE AND POLICY INTO THE SERVICES' ANNUAL PROGRAM, 
            PLANNING, BUDGETING AND EXECUTION (PPBE) PROCESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     2

                               WITNESSES

Cheek, MG Gary H., USA, Assistant Deputy Chief of Staff, G-3/5/7, 
  Department of Defense..........................................    12
Foggo, RADM James G., III, USN, Assistant Deputy Chief of Naval 
  Operations (Operations, Plans and Strategy) (N3/N5B), 
  Department of Defense..........................................     4
Jones, Maj Gen James J., USAF, Director of Operations, Deputy 
  Chief of Staff for Operations, Plans and Requirements, 
  Department of Defense..........................................     8
Killea, BGen Kevin J., USMC, Director of the Marine Corps 
  Warfighting Laboratory, Department of Defense..................    11
Stough, Maj Gen Michael S., USAF, Vice Director, Joint Force 
  Development, J7, Department of Defense.........................     7

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    31

    [Editor's Note: The witnesses did not provide written 
      statements of the proposed testimony in advance of the 
      hearing. The Chairman, in concurrence with the Ranking 
      Minority Member, agreed to waive Committee Rule 13 for this 
      hearing.]

Documents Submitted for the Record:

    [There were no Documents submitted.]
Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................    35
    Mr. McIntyre.................................................    35

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    41
    Mr. Langevin.................................................    54
 
  DEPARTMENT OF DEFENSE DEVELOPMENT AND INTEGRATION OF AIR-SEA BATTLE 
  STRATEGY, GOVERNANCE AND POLICY INTO THE SERVICES' ANNUAL PROGRAM, 
            PLANNING, BUDGETING AND EXECUTION (PPBE) PROCESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                        Washington, DC, Thursday, October 10, 2013.
    The subcommittee met, pursuant to call, at 3:29 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I would like to thank our distinguished panel 
of witnesses for appearing before the subcommittee today. Today 
we have testifying before us Rear Admiral Jim Foggo, Assistant 
Deputy Chief of Naval Operations for Operations, Plans, and 
Strategy; Major General Mike Stough, Vice Director for Joint 
Force Development of the Joint Staff, J-7; Major General Jim 
Jones, Director of Operations for the Deputy Chief of Staff for 
Air Force Operations, Plans and Requirements; Brigadier General 
Kevin Killea, Director of the Marine Corps Warfighting 
Laboratory located within the Marine Corps Combat Development 
Command; and Major General Gary Cheek, Assistant Deputy Chief 
of Staff for the Army,
G-3/5/7.
    Gentlemen, thank you again for appearing. And we thank you 
for your service to this great Nation. Under the first tranche 
of budget reductions that began in 2010 with $168 million of 
efficiencies taken out of the Defense Department's budget, the 
Joint Staff was understandably stretched thin, supporting OEF 
[Operation Enduring Freedom] and OIF [Operation Iraqi Freedom] 
operations, and was unable to absorb critical joint force 
integration functions and responsibilities of Joint Forces 
Command after it was dismantled in August 2011. One significant 
consequence of that budget cut was that a vacuum of 
preparedness and increased risk manifested itself, resulting in 
the Department of Defense's inability to maintain sufficiently 
trained, equipped joint warfighting forces that could 
strategize, integrate, and guarantee a successful and timely 
outcome in an anti-access/area denial [A2/AD] high-end 
contingency operation.
    However, under the auspices of the new Defense Strategic 
Guidance, issued by the Secretary of Defense in January 2012, 
the services took it upon themselves to fill that institutional 
void and establish the Air-Sea Battle Office, acknowledging our 
military's need to refocus capabilities on global full-spectrum 
contingencies in A2/AD environments.
    I do not believe that Air-Sea Battle in itself is a 
strategy, a budget preservation gimmick, nor is it focused 
particularly on a specific country or entity. What I do believe 
is that it is the services' best attempt to hold themselves 
accountable to their title 10 obligations of preparing for and 
defending the freedoms and liberties that we as Americans hold 
dear. It is extremely important that our military remains 
capable and equipped to fight full-spectrum warfare, whether it 
is in permissive environments such as what we have experienced 
for the past 10 years, or in high-end contingencies against 
adversaries with advanced air and missile defense systems and 
near-peer force structure.
    What we would like to discuss with our witnesses today is 
how the efforts and products developed by the Air-Sea Battle 
Office are integrating into each service's planning and 
budgeting process, as well as how the Joint Staff plans to 
institutionalize the Air-Sea Battle initiative of the services 
within the Department of Defense. We would also like to 
understand how the Air-Sea Battle Concept informs the 
Department's anti-access/area denial warfighting strategy, 
recognizes capability gaps and shortfalls, applies the 
necessary resources to mitigate those gaps, and tailors joint 
force training and exercises towards joint seamless integration 
continuity. The Air-Sea Battle Concept is an important 
initiative that will help determine how the joint force will 
gain and maintain access in future military operating 
environments.
    I look forward to hearing an update from our witnesses 
about the concept's development and future outlook. I also view 
this hearing as a good public opportunity for our witnesses to 
clarify intent and respond to misconceptions and falsities that 
have surrounded the Air-Sea Battle Concept over the past few 
years. With that, I turn to my good friend and colleague, the 
ranking member of the subcommittee, Representative Mike 
McIntyre.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 31.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you. Thank you, Mr. Chairman, for 
holding this hearing today. Thanks to all the witnesses for 
your decades of service that you have given individually and 
collectively. And I know that there is concern about the 
importance of the Air-Sea Battle Concept. There has been 
support for this, but it seems like the question is how much 
has really happened within DOD [Department of Defense] to 
proceed on this? And I wanted just to lay out a few things in 
layman's terms that maybe will help us focus today in the time 
we have together. First, we realize that Air-Sea Battle is not 
necessarily just a strategy, but rather an approach or a 
framework. And we want to make sure, is that a clear 
understanding? To solve a very difficult military challenge 
that U.S. forces may face in the future.
    First, assuming that future enemies will use a wide array 
of methods to slow down or prevent U.S. military forces from 
moving to critical locations. Simply put, if the military 
forces can't actually get there, then they can't influence the 
battle. Second, we know that Air-Sea Battle assumes that even 
when the U.S. forces arrive, a smart enemy will try to use an 
array of asymmetric means to stop the U.S. military from 
operating the way it wants to, such as taking away the 
advantages in standoff-range weapons or logistics, or long-
range sensors and other areas such as that.
    If they can do this in the future, if our enemies can do 
it, then our forces may end up not getting to the fight in time 
to make a difference, and may take many more casualties than we 
would expect once they do get there. Clearly, those would be 
bad outcomes for the United States. And clearly, I know that 
the chairman and I on this subcommittee and our full committee 
would want to make sure that those types of things were 
prevented as far as possible, and ultimately not happen at all. 
We want to make sure that the Air-Sea Battle Concept helps the 
DOD develop the weapons, the doctrine, the organizations, and 
the training needed to overcome these types of challenges in 
the future.
    Also, despite the clarity of this military challenge, we 
may also want to look at, is the DOD really progressing to make 
progress in these areas? For instance, the Asia-Pacific shift 
we hear so much about now with the focus on the Pacific Rim and 
with Air-Sea Battle Concept, we are told taking three aircraft 
carriers out of the fleet was one of the options looked at 
during the strategic management choices review. With the 
concern about anti-access and area denial capabilities, the 
question is, why would that type of step even be considered?
    Also from a larger perspective, DOD has not yet proposed a 
significant shift of funding within the DOD budget to two 
military departments, the Navy and the Air Force, who have the 
largest roles in the Air-Sea Battle Concept by definition. The 
Navy's total budget share has yet to return to pre-9/11 levels 
despite the end of the war and the rapid drawdowns that are 
occurring in Iraq and Afghanistan respectively. The Air Force's 
situation is even worse, with the Air Force dropping just under 
30 percent of the total DOD budget before 9/11 to just under 25 
percent today.
    So the concern I have and that many of us share is that 
until substantial resources shift within DOD to put back in 
place what the Navy and Air Force may need, that we would not 
see real implementation of the Air-Sea Battle Concept or the 
real progress necessary or understood to be necessary in the 
Asia-Pacific shift. So with that in mind, Mr. Chairman, I want 
to thank you for this opportunity, and would like to hear these 
areas addressed from our witnesses, and see what the prospects 
are for real progress as we look ahead to 2015 budget and 
beyond. Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mike. And Admiral, I think you are 
going to start us off. And just before you start, I just wanted 
to take just a moment and tell you this is probably one of the 
most bipartisan subcommittees we have in Congress. We all have 
a lot of respect for each other, and you have a lot of 
expertise on here. Later, Mr. Courtney, who has a lot of 
expertise in submarines and naval situations, will be asking 
questions. Mr. Wittman is the chairman of the Readiness 
Subcommittee. And all of you know him and look forward to his 
comments and questions. And of course, the gentleman from 
California, Mr. Cook, served us well in uniform, as all of you 
know.
    So we are looking forward to our questions. But Admiral, as 
we start off, I would just like for you or someone else as you 
address in your opening remarks, since we are laying a 
transcript and a record to be used for other Members, Mike was 
correct in saying sometimes there is just a little confusion in 
what we are even talking about. And I want to go back to even 
what anti-access/area denial really means and how it has 
changed and transformed from maybe 20 years ago. But the second 
thing is, if you could address for us, I think part of this 
confusion we have is in the name. When you look at Air-Sea 
Battle, it is remarkably like AirLand Battle concept. And 
AirLand Battle was, I believe, a strategy. But Air-Sea Battle 
Concept is a concept. And if you could elaborate on maybe the 
difference between the two, because that nomenclature might 
have left some misconceptions in some people's mind. With that, 
Admiral, we look forward to your remarks, and thank you again 
for being here.

  STATEMENT OF RADM JAMES G. FOGGO III, USN, ASSISTANT DEPUTY 
CHIEF OF NAVAL OPERATIONS (OPERATIONS, PLANS AND STRATEGY) (N3/
                  N5B), DEPARTMENT OF DEFENSE

    Admiral Foggo. Chairman Forbes, thank you, sir. Ranking 
Member McIntyre and distinguished members of the subcommittee, 
thank you for the opportunity to come here and testify today on 
the Air-Sea Battle Concept. I am joined by Major General Jones 
of the United States Air Force, Brigadier General Killea of the 
United States Marine Corps, Major General Cheek of the United 
States Army, and Major General Stough, Vice Director, Joint 
Force Development Joint Staff, each providing their individual 
service and Joint Staff perspectives for you today.
    So let me begin by answering the question, what is the Air-
Sea Battle Concept? The Air-Sea Battle Concept was approved by 
the Secretary of Defense in 2011. It is designed to assure 
access to parts of the global commons, those areas of the air, 
sea, cyberspace, and space that no one necessarily owns, but 
which we all depend on, such as sea lines of communication. Our 
adversaries' anti-access/area denial strategies employ a range 
of military capabilities that impede the free use of these 
ungoverned spaces. These military capabilities include new 
generations of cruise, ballistic, air-to-air, surface-to-air 
missiles, with improved range, accuracy, and lethality that are 
being produced and proliferated. Quiet, modern submarines and 
stealthy fighter aircraft are being procured by many nations, 
while naval mines are being equipped with mobility, 
discrimination, and autonomy.
    Both space and cyberspace are becoming increasingly 
important and contested. Accordingly, Air-Sea Battle in its 
concept is intended to defeat such threats to access and 
provide options to national leaders and military commanders to 
enable follow-on operations, which could include military 
activities, as well as humanitarian assistance and disaster 
response.
    In short, it is a new approach to warfare. The Air-Sea 
Battle Concept is also about force development in the face of 
rising technological challenges. We seek to build at the 
service level a pre-integrated joint force which empowers U.S. 
combatant commanders, along with allies and partners, to engage 
in ways that are cooperative and networked across multiple 
domains: The land, maritime, air, space, and cyber domains. And 
our goal includes continually refining and institutionalizing 
these practices. When implemented, the Air-Sea Battle Concept 
will create and codify synergies within and among the services 
that will enhance our collective warfighting capability and 
effectiveness.
    So that is, in a nutshell, what the Air-Sea Battle Concept 
is. But now what is it not? Sir, you pointed out the Air-Sea 
Battle Concept is not a strategy, to answer your question on 
the difference between AirLand Battle and the Air-Sea Battle 
Concept. National or military strategies employs ways and means 
to a particular end or end state, such as deterring conflict, 
containing conflict, or winning conflict. A concept, in 
contrast, is a description of a method or a scheme for 
employing military capabilities to attain specific objectives 
at the operational level of war. The overarching objective of 
the Air-Sea Battle Concept is to gain and maintain freedom of 
action in the global commons. Air-Sea Battle does not focus on 
a particular adversary or a region. It is universally 
applicable across all geographic locations, and by addressing 
access challenges wherever, however, and whenever we confront 
them.
    I said earlier the Air-Sea Battle Concept represents a new 
approach to warfare. Here is what I meant by that. 
Historically, when deterrence fails, it is our custom to mass 
large numbers of resources, leverage our allies for coalition 
support and base access or overflight, and build up an iron 
mountain of logistics, weapons, and troops to apply 
overwhelming force at a particular space and time of our 
choosing. This approach of build up, rehearse, and roll back 
has proven successful, from Operation Overlord on the beaches 
of Normandy in 1944, to Operation Iraqi Freedom in the Middle 
East. But the 21st century operating environment is changing. 
Future generations of American service men and women will not 
fight their parents' wars. And so I will borrow a quote from 
Abraham Lincoln written in a letter to this House on 1 December 
1862, when he said, ``We must think anew, act anew. We must 
disenthrall ourselves from the past, and then we shall save our 
country.''
    New military approaches are emerging, specifically intended 
to counter our historical methods of projecting power. 
Adversaries employing such an approach would seek to prevent or 
deny our ability to aggregate forces by denying us a safe haven 
from which to build up, rehearse, and roll back. Anti-access is 
defined as an action intended to slow deployment of friendly 
forces into a theater, or cause us to operate from longer 
distances than preferred. Area denial impedes friendly 
operations or maneuver in a theater where access cannot be 
prevented. The Air-Sea Battle Concept mitigates the threat of 
anti-access and area denial by creating pockets and corridors 
under our control.
    The recent conflict in Libya, Operation Odyssey Dawn in 
2011, is a good example of this paradigm shift. Though Air-Sea 
Battle was still in development, the fundamental idea of 
leveraging access in one domain to provide advantage to our 
forces in another was understood and employed against Libya's 
modest anti-access/area denial capability. On day one of combat 
operations, cruise missiles launched from submarines and 
surface ships in the maritime domain targeted and destroyed 
Libya's lethal air defense missile systems, thereby enabling 
coalition forces to conduct unfettered follow-on strikes and 
destroy the Libyan air force and control the air domain.
    Establishing a no-fly zone, key to interdicting hostile 
regime actions against innocent civilians, and that was our 
mission, protect civilians, was effectively accomplished within 
48 hours of receiving the execution order from the President. I 
was the J-3, or the operations officer for Admiral Sam 
Locklear, commander of Joint Task Force Odyssey Dawn. And I 
transitioned from U.S.-led coalition operations to Operation 
Unified Protector as a task force commander for NATO [North 
Atlantic Treaty Organization]. During the entire campaign, 
which lasted 7 months, NATO reported in its U.N. [United 
Nations] after action report that there were just under 18,000 
sorties flown, employing 7,900 precision guided munitions. That 
is a lot. More than 200 Tomahawk land-attack missiles were 
used, over half of which came from submarines. The majority of 
the Libyan regime order of battle, which included 800 main 
battle tanks, 2,500 artillery pieces, 2,000 armored personnel 
carriers, 360 fixed-wing fighters, and 85 transports, were 
either disabled or destroyed during the campaign. Not one 
American boot set foot on the ground. No Americans were killed 
in combat operations. We lost one F-15 due to a mechanical 
failure, but we recovered both pilots safely.
    Muammar Gaddafi, as you know, was killed by Libyan rebels 
in October 2011. The Air-Sea Battle Concept in its classified 
form was completed in November 2011, one month later. I 
provided Admiral Locklear with a copy of the Air-Sea Battle 
Concept, and we reviewed it on a trip to the United Kingdom. 
Upon reading it, I thought back to the Libya campaign, and I 
wondered how I might leverage the concepts of Air-Sea Battle to 
fight differently, to fight smarter. Operation Odyssey Dawn 
accelerated from a noncombatant evacuation operation and 
humanitarian assistance to kinetic operations in a very short 
period of time. There was little time to build up and rehearse 
our forces.
    To coin a phrase from my boss, this was like a pickup game 
of basketball, and we relied on the flexibility, innovation, 
and resiliency of the commanders and the forces assigned to the 
joint task force. The Libyan regime's anti-access/area denial 
capability was limited, as I said, and we were able to 
overwhelm and defeat it with the tools that we had. But we must 
prepare for a more stressing environment in the future.
    Air-Sea Battle does so by providing commanders with a range 
of options, both kinetic and nonkinetic, to mitigate or 
neutralize challenges to access in one or many domains 
simultaneously. This is accomplished through the development of 
networked integrated forces capable of attack in depth to 
disrupt, destroy, and defeat the adversary. And it provides 
maximum operational advantage to friendly, joint, and coalition 
forces. I am a believer, and so are the rest of the flag and 
general officers here at the table with me. Thank you for the 
opportunity to appear today. I look forward to your questions.
    Mr. Forbes. Thank you, Admiral. General Stough.

 STATEMENT OF MAJ GEN MICHAEL S. STOUGH, USAF, VICE DIRECTOR, 
       JOINT FORCE DEVELOPMENT, J7, DEPARTMENT OF DEFENSE

    General Stough. Thank you, Chairman Forbes, Ranking Member 
McIntyre, and distinguished members of the subcommittee. Thanks 
for allowing me the opportunity to be here today to discuss how 
the joint force is addressing access challenges. My role here, 
I think, is to give you an idea of how this integrates into the 
Joint Staff. I am going to discuss the overarching concept very 
briefly, the Joint Operational Access Concept, its relationship 
to Air-Sea Battle and other supporting concepts, and our 
ongoing implementation efforts. The Secretary of Defense, as 
Admiral Foggo pointed out, clearly established as one of the 10 
primary missions of the joint force the ability to project 
power despite anti-access/area denial challenges. To meet that 
objective, the Secretary directed the implementation of the 
Joint Operational Access Concept, or JOAC. JOAC describes the 
chairman's vision for how joint forces will operate in response 
to emerging anti-access and area denial challenges as part of 
our broader national approach. It seeks flexible integration of 
service capabilities across multiple domains. And those include 
space and cyberspace and the traditional air, maritime, and 
land domains as well, and it identifies 30 required operational 
capabilities needed to gain operational access.
    Now, supporting concepts, Air-Sea Battle is one of those, 
provide the greater operational context to the JOAC itself. The 
Air-Sea Battle Concept is one of the most critical, as it 
focuses on the development of integrated forces to, again, as 
Admiral Foggo said, to gain and maintain freedom of action in 
the global commons. We are also developing the joint concept 
for entry operations. It is currently in work, and it describes 
how a future joint force will overcome area denial threats to 
enter into hostile territory.
    The development of the 30 JOAC capabilities and the 
associated capabilities from the supporting concepts is key to 
ensuring the joint force has the requisite capabilities to 
counter emerging A2/AD threats. To improve efforts to implement 
JOAC and its supporting concepts, the chairman has directed an 
approach to integrate, oversee, assess, and communicate joint 
force development efforts required to overcome emerging 
challenges. This approach focuses on the four operational 
objectives and associated capabilities that the combatant 
command require to operate in an A2/AD environment: Gain and 
maintain regional cooperative advantage to counter A2/AD 
strategies, more the shaping the environment; rapidly aggregate 
the force; disrupt, destroy, and defeat A2/AD capabilities; and 
conduct sustained operations in an A2/AD environment.
    The Joint Staff J-7 will lead a multiyear iterative effort, 
with the oversight provided by the director of Joint Staff and 
the service operations deputies, in order to implement these 
concepts. In closing, I would offer two thoughts. First, the 
efforts to implement the JOAC, or Air-Sea Battle for that 
matter, don't supplant established authorities or processes 
that are a means to increase focus and integrate efforts across 
the services and the joint force to address a critical set of 
challenges. And second, in support of Joint Operational Access 
implementation, the Air-Sea Battle Office serves a critical 
function in integrating the development of service-specific 
capabilities that the joint force commander will require. The 
current Air-Sea Battle implementation plan will be leveraged to 
the maximum extent possible to inform relevant segments of our 
own Joint Operational Access implementation plan.
    On behalf of our military members and civilian employees at 
work every day to ensure our country is successful in preparing 
for and countering these challenges, I would like to thank you 
for your support, and I look forward to the discussion.
    Mr. Forbes. Thank you, General. General Jones.

    STATEMENT OF MAJ GEN JAMES J. JONES, USAF, DIRECTOR OF 
  OPERATIONS, DEPUTY CHIEF OF STAFF FOR OPERATIONS, PLANS AND 
              REQUIREMENTS, DEPARTMENT OF DEFENSE

    General Jones. Chairman Forbes and Ranking Member McIntyre, 
and again, the distinguished members of the subcommittee, I 
also want to thank you for the opportunity to come and speak 
with you today and present the Air Force perspective on how we 
are executing the Air-Sea Battle construct. As I know you are 
aware, Admiral Greenert and General Welsh recently collaborated 
on an article that was called ``Breaking the Kill Chain.'' It 
is a very descriptive term of one of the constructs that we are 
addressing in this Air-Sea Battle. And it was intended to 
describe the methodology that we would use to implement this 
overall concept. And there were three supporting efforts that 
were clearly identified in there: Compelling institutional 
change, fostering conceptual alignment amongst the services, 
and then promoting programmatic changes. And given this rapidly 
evolving, very sophisticated, and challenging operational 
environment that was described by Admiral Foggo in his opening 
remarks, I would like to further elaborate on how we are 
integrating the Air-Sea Battle Concept into our established 
service processes.
    I would like to start by saying that there is a big 
difference between deconflicting among services and integration 
amongst our services. And as we work to conduct these 
operations across the multi-domains that Admiral Foggo 
described, it requires a very rapid and a very tight 
coordination amongst the air, the ground, and the naval forces. 
It is a level of integration that goes far beyond what we may 
do to preplan or merely deconflict those actions. And it is not 
something that can be effectively and efficiently conducted on 
an ad hoc basis for any response that we may have to provide. 
Our forces need to be pre-integrated. We need to make sure that 
we have this ability inculcated into everything that we do.
    Sir, our adversaries have witnessed the power and the might 
that our services together can bring, the overwhelming force 
when we are given the opportunity to assemble forces in 
theater, do multiple mission rehearsals before the operations 
commence. And their concerns are clearly evident by the rapid 
proliferation of more lethal air defenses, the anti-ship cruise 
and ballistic missiles, and more integrated surveillance 
systems. In addition, our military has evolved from a force 
that was largely dependent on large bases and forward garrisons 
that were close to the potential battlefields, to a more 
expeditionary force that could support a smaller overseas 
presence by surging into the area from hundreds, or even 
thousands of miles away.
    Sir, you asked in your comment how has the anti-access/area 
denial threat evolved over the last couple of decades? And, 
sir, as you well know, the idea of anti-access or area denial 
is not new. But what has changed is the range that these 
systems are able to employ at, a networked capability that ties 
into surveillance to be able to queue those systems in, and the 
incredible accuracy that those bring. So while the basic 
construct itself is part of warfare for decades past, this 
emerging technology and the proliferation of that technology 
that ties the integration of the sensors that sense where 
people are, and queues, and the range and precision that those 
bring have driven a much larger operational problem for us. We 
are leveraging Air-Sea Battle to build these pre-integrated 
joint forces that I talked about. And there is plenty of 
examples.
    Our brethren from the Navy and their Top Gun school 
routinely train with our Air Force's weapons school. In recent 
Red Flag exercises that historically have been for our air 
services, we had planners, Navy TLAM [Tomahawk Land Attack 
Missile] planners from the Third Fleet, that were integrated 
into the air operations planning. And that enabled us to 
familiarize both the Air Force and the Army planners on how to 
integrate operations on a more frequent basis.
    Air Combat Command and Navy Fleet Forces Command are 
working on common problems together in this newly formed Navy-
Air Force integration forum. And just 2 weeks ago, the Navy 
sponsored an exercise, Navy Global 13, that examined three 
different concepts for doing command and control in a cross-
domain environment. And we participated in those, and we will 
take those, those will be further developed, and those will 
lead into the Air Force's Unified Engagement. And we will 
exercise in 2014, and we will further build on those and work 
towards a development of joint doctrine.
    We continue to expand doctrine integration and enhancing 
collaboration with the Army air defense forces, Marine 
reconnaissance forces. And each one of these small steps takes 
us closer to our objectives of conceptual alignment and the 
pre-integration of joint forces across the warfighting domain. 
Sir, Air-Sea Battle is not about adding processes to the 
existing DOD governance. We are working within the existing 
requirements and the resourcing processes that each service and 
the Joint Staff already use. Countering this anti-access/area 
denial environment has caught the attention of nearly every 
organization within DOD. And the Air-Sea Battle Office's 
efforts to enhance that joint response across the full range of 
doctrine, organization, training, material, leadership, 
personnel, and facilities across that whole spectrum provides a 
prism through which each service can assess their resource 
priorities to enable their advancements to counter the anti-
access/area denial environment.
    And I want to stress again this provides a prism that each 
service can look through to identify what they might need to 
do. We advise and we assist those service resource planners and 
perform the specific roles as they ask us to look into their 
processes. And as we continue to mature the Air-Sea Battle 
Concept, the inter-service collaboration is occurring more 
frequently on resource priorities that may cross service lines. 
These enhanced relationships across the services are essential 
to create a more highly networked, cross-domain operational 
mindset in all of our forces.
    Sir, you mentioned AirLand Battle. And Air-Sea Battle's 10 
mission focus areas can be roughly compared to the AirLand 
Battle's 31 initiatives. What might be different about Air-Sea 
Battle is that it is not tied to one particular focus area. And 
as you are well aware, the AirLand Battle was designed to help 
us perform more effectively in the Fulda Gap scenario. This has 
nothing to do with a region. It is a concept that can support 
that strategy and provide choices to our combatant commanders 
wherever they may need to counter that anti-access/area denial 
threat.
    These mission-focused areas are helping us more carefully 
align and incorporate what we learn from exercises, from war 
games, training and experiments, and advance the counters, the 
anti-access/area denial threats, much like AirLand Battle's 31 
initiatives helped us focus our response to that Fulda Gap 
problem in the cold war.
    Sir, we have had healthy discussions about our relationship 
with the Joint Staff and potential areas of duplication, and I 
am very confident that we have the right constructs in place. 
We are well integrated and mutually supporting each other's 
work. And that relationship remains strong as we continue to 
refine our operational constructs. As mentioned earlier, the 
Air-Sea Battle is an accepted supporting component of the Joint 
Staff's Joint Operational Access Concept, JOAC, and it sits 
alongside the forthcoming joint concept for entry operations. 
And as General Stough previously mentioned, while the Air-Sea 
Battle Concept is fully nested within those concepts, each of 
our services have unique roles and responsibilities under title 
10 that need to continue outside that Joint Staff planning 
process.
    The identification of the capability gaps, the 
identification of solutions, and the resourcing of those 
solutions all begin with our services. And while the Joint 
Staff and the OSD [Office of the Secretary of Defense] offices 
have oversight roles and numerous activities, the genesis and 
development of the requirements and the resource 
recommendations remain with those services. But what the Air-
Sea Battle Office presents as an action arm of those services 
is assisting the evaluation of those DOTMILPF [Doctrine, 
Organization, Training, Materiel, Leadership and Education, 
Personnel, and Facilities] options to address the overall anti-
access/area denial requirements.
    So sir, in conclusion, while the anti-access/area denial 
problems definitely present a significant challenge to the U.S. 
and our allied forces, sustaining the teamwork that we have 
established and the things that are resulting from the catalyst 
of this Air-Sea Battle Concept and the Air-Sea Battle Office's 
efforts offer a path to success. Compelling the institutional 
change amongst our services, fostering the conceptual 
alignment, and promoting programmatic collaboration are broad 
actions taken to ensure the global commons remain free in the 
face of ever-increasing threats.
    Sir, again I thank you for this opportunity to address the 
subcommittee, and I look forward to addressing your questions.
    Mr. Forbes. Thank you, General Jones. General Killea.

STATEMENT OF BGEN KEVIN J. KILLEA, USMC, DIRECTOR OF THE MARINE 
      CORPS WARFIGHTING LABORATORY, DEPARTMENT OF DEFENSE

    General Killea. Mr. Chairman, Ranking Member McIntyre and 
members of the subcommittee, as the director of Marine Corps 
concept development and experimentation, I appreciate the 
ability to talk today about our perspective on anti-access/area 
denial challenges and our role in the Air-Sea Battle Office. 
While the development and proliferation of increasingly 
advanced A2/AD systems threaten our ability to gain access and 
achieve freedom of maneuver in the global commons, the A2/AD 
challenge isn't new territory. Although, as you said, Mr. 
Chairman, it is evolving and developing. But addressing it 
continues to demand a balanced, joint approach, both non and 
material solutions. It is important that we not lose sight of 
this and allow A2/AD to become some entirely new problem that 
requires a solely technical solution. And I think everybody at 
this table agrees with that.
    As we recognize the formidable challenge the proliferation 
of advanced technologies presents to our long held military 
advantage, we must keep in mind that our operational approach 
to counter access and area denial threats will remain a key 
component to any successful strategy. In short, access 
challenges can't be overcome by technology alone. The A2/AD 
discussion must continue to include the operational approach 
that leverages all the capabilities of the joint force. The 
overarching Joint Operational Access Concept, supported by the 
subordinate concepts of Air-Sea Battle, and the forthcoming 
joint concept for entry operations, gives due consideration to 
adversary systems, but also places emphasis on the joint 
force's need for an effective operational approach.
    Along these lines, the Marine Corps continues to support 
the increasingly convergent efforts of the Air-Sea Battle 
Office and the Joint Staff to develop a more capable cross-
domain force prepared for the range of missions laid out in the 
Defense Strategic Guidance. And it is a range of missions. As a 
pre-integrated naval force inherently equipped to fight across 
multi-domains, the Marine Corps supports Air-Sea Battle's 
efforts to increase the interoperability of our joint forces in 
the A2/AD environment. To that end, the Marine Corps supports 
implementing both the Joint Operational Access and Air-Sea 
Battle Concepts through war gaming, experimentation, and 
exercising existing planned and developing capabilities.
    Specific efforts on our part include developing force 
postures and concepts for increased phase zero engagement and 
crisis response that will be critical to both deterring threats 
and maintaining access, developing concepts and longer range 
capabilities that will enhance our operational maneuver and our 
ability to seize and defend forward bases, airfields, strategic 
chokepoints, and other key terrain in support of a joint 
campaign.
    These Marine Corps concepts and capabilities are intended 
to lend resiliency to the joint force by employing mobile 
platforms and dispersed aviation and ground assets that 
increase the number of sea- and land-based launch points.
    Lastly, projecting power despite A2/AD is just one of the 
many mission sets that the services must be able to accomplish 
per the Defense Strategic Guidance. As such, Air-Sea Battle is 
one of many lenses the Marine Corps uses to view its 
programming priorities. This is why collaboration between the 
services in Air-Sea Battle is so important. The Marine Corps 
will continue to maintain investment in a broad portfolio of 
capabilities to support the joint force across the entire range 
of military operations.
    In closing, the Air-Sea Battle's Office efforts have been 
an important step in addressing the evolving access and area 
denial challenges our forces will face in the future. The 
Marine Corps looks forward to continued service-to-service 
collaboration in this area, as well as the integration of the 
appropriate ASB [Air-Sea Battle] efforts with those of the 
Joint Staff. Sir, I thank you for your support and the 
committee's support, the subcommittee's support for the men and 
women in uniform, and I look forward to your questions.
    Mr. Forbes. Thank you, General. General Cheek.

 STATEMENT OF MG GARY H. CHEEK, USA, ASSISTANT DEPUTY CHIEF OF 
             STAFF, G-3/5/7, DEPARTMENT OF DEFENSE

    General Cheek. Chairman Forbes and Ranking Member McIntyre, 
distinguished members of the subcommittee, thank you for the 
opportunity to speak with you today about Air-Sea Battle. Now 
some might be surprised that an Army general would be before 
Congress talking about Air-Sea Battle, and I confess, I am a 
little surprised myself to be here. But I would frankly tell 
you that for the Army, we look forward to any and every 
opportunity to partner with our joint brothers and sisters for 
operations. And we get a lot of benefits from those. And we 
give a lot of benefits to our other joint services. And 
frankly, this is really what makes our military unique, is the 
fact that we can bring these pieces together in a synergistic 
way and achieve great effect against our Nation's enemies. But 
we also recognize that we have got to be able to look beyond 
what we are doing today currently in Afghanistan to future 
conflicts. And we recognize that there is a very real 
likelihood that those future conflicts could require us to go 
into areas that an adversary would deny us in either the global 
commons or an area that we are trying to operate in.
    So we are very happy to be part of this process. Now, maybe 
even more surprising is my own personal experience, having just 
come from the CENTCOM AOR [United States Central Command area 
of responsibility] and serving with my good friend General 
Jones, where I was the deputy for the Army component to CENTCOM 
and he was the deputy for the Air Force component. But we dealt 
on a daily basis there with this very issue in the Persian Gulf 
and the Straits of Hormuz. So you would be interested to know 
that the things that we had to do to kind of counter that 
environment I guess is the best way to describe it with a lot 
of joint interoperability.
    And so, for one example, for air and missile defense, we 
provided Army Patriots, the Navy provided Aegis cruisers, but 
we put them under the tactical control of the Air Force. And 
they did a great job of exercising those routinely so that we 
maintained the capability to take advantage of each other's 
capabilities and provide overlapping and appropriate coverage 
of the critical assets in the theater. A second thing that we 
did, we provided Army tactical missiles as part of the air 
tasking order and the joint targeting plan. So again, an Army 
contribution to that effort. And maybe most uniquely, and 
something that I know our soldiers really enjoyed, was 
operating Apache helicopters off the decks of Navy ships, where 
we would receive moving target indicators from Air Force AWACs 
[Airborne Warning and Control System] aircraft and operate 
under the tactical control of the Navy against small attack 
craft in the Persian Gulf.
    So those are just examples of what is happening today. And 
I think what is really great about this concept is we can take 
those very real activities that we are doing, codify them, 
improve them, test them, and further develop them and then 
return those to the field. So despite the title Air-Sea Battle, 
I am very happy and the Army is very happy to be a charter 
member of the organization and active participant. And we think 
we have a lot to benefit from this because we recognize that 
any future land campaign will likely have to use the 
techniques, procedures, technologies that we have developed in 
support of this. So again, thank you for the opportunity to 
speak with you today.
    Mr. Forbes. General, thank you. And we thank all of you for 
those opening remarks. And any written statements you would 
like to put in the record in addition to that, we certainly 
would welcome them. And I am going to defer my questions until 
the end so we can get all of our members' questions in. But at 
this time, I would like to recognize our ranking member, 
Congressman McIntyre, for any questions he may have.
    Mr. McIntyre. Thank you, Mr. Chairman. I will be brief so 
that we can afford our other members an opportunity. Rear 
Admiral Foggo, beyond the military weapons systems, are there 
specific examples you can cite in the areas of training or 
organizational change that are a product of the Air-Sea Battle 
Concept?
    Admiral Foggo. Yes, sir. We talked about our recent war 
game in Newport, Rhode Island, just about 10 days ago, Global 
13. Global 13 took a look at command and control in the Air-Sea 
Battle context with two additional domains that are rather new 
in terms of warfighting, space and cyber. And part of the 
challenge was to determine how to create a command and control 
construct that would operate in the space and cyber domain, and 
how you would control the space and cyber domain, and how you 
would integrate that with the rest of your forces. The outcome 
of that war game is being written up in conclusions and lessons 
learned by our War College, and it will come back to the Air-
Sea Battle Office and be distributed to the services. That will 
be used next year in the Air Force's Unified Engagement game as 
a baseline for future progression in the determination of how 
we best operate together.
    Then those will be tested out in exercises in the fleet, in 
the Air Force, and amongst the joint force and the services. 
So, General Jones mentioned Red Flag. That is one aspect of an 
actual exercise that takes place out in the field, training. 
There is a joint effort right now, sir, Iron Crucible, which is 
a part of the JOAC [Joint Operational Access Concept] process, 
that will help train the joint force in the scheme of maneuver 
of the Air-Sea Battle Concept. So I hope that answers your 
question.
    Mr. McIntyre. Thank you. Major General Killea, with the 
Marine Corps, what efforts do you feel like the senior leaders 
feel are the top five things that could be done to help build 
the kind of military capabilities that we need to operate in an 
anti-access/area denial environment? And do you feel like we 
are making progress in any of those areas?
    General Killea. Well, sir, I think areas of development 
that would help us in the Air-Sea Battle environment, I think 
Admiral Foggo touched on a piece that is very critical right 
now, it is the initial war gaming, experimentation and then 
what leads to exercising and training as a joint force. We are 
still pretty much developing this. And we still don't know what 
we don't know in that realm. And I think that is going to 
uncover a lot of things that lead to the chairman's question 
early on about what can we do to inject into the process that 
we can obtain to help in the Air-Sea Battle environment.
    So, sir, I don't have anything more specific than that. I 
can take your question for the record and see if there is 
something more to it. But I think we have an opportunity here, 
as a joint force, to uncover some things as we go forward with 
war gaming, experimentation, and exercise.
    [The information referred to can be found in the Appendix 
on page 35.]
    Mr. McIntyre. That would help in listing what you feel like 
may be the top five things that would help you in that regard 
so that we will know how to prioritize. And then Major General 
Jones, the Air Force, we know that if there was a shift of 
funding that I alluded to in my opening remarks, that would 
clearly help. But in the little bit of time that I will take 
left, so that we can go to other questions, let me just ask 
you, absent a shift of funding share to the Air Force in this 
difficult budget time, what progress do you feel the Air Force 
can make in the next 5 years so that this moves forward?
    General Jones. Sir, as we have worked our way through the 
challenges that are associated with this fiscal environment, 
and we are focusing very much on what we need to continue to 
develop in this anti-access/area denial environment, things 
that we have protected to move forward in that is our effort to 
protect the F-35, the development of that airplane, which is 
not only important for the Air Force but for our joint sisters 
and for our coalition partners as well. And that will be a key 
piece of what we bring in terms of air power in this anti-
access/area denial environment. So we are working hard to 
protect that within our existing budget.
    Mr. McIntyre. Which did you say?
    General Jones. The F-35, sir. Protecting the F-35 platform. 
We are also protecting the development of our next long-range 
strike bomber. And so, sir, as we work our way through this, 
the things that we are focused on within our existing budget 
are the things that are unique to the Air Force to bring in 
terms of how we will contribute to the joint fight. And we 
think that is that global power capability that we bring, and 
the capabilities and the technology that we need to be able to 
continue to counter this proliferation of technology.
    We are also focusing on, and continuing on track with our 
next tanker, the KC-46. And again, that is a global capability 
that enables us to have the reach, the speed of response, and 
the flexibility to help not only the Air Force, but to set the 
stage and to support the other components to arrive. So sir, 
where we are in our budget and our priorities, protecting those 
capabilities I think is key to advancing where we need to go.
    Mr. McIntyre. Do you know if the intent to use those 
tankers would still be at Seymour Johnson Air Force [Base]?
    General Jones. Sir, I will have to take that and get back 
with you as we work our way through that final, the total 
basing. But I will take that for the record.
    [The information referred to can be found in the Appendix 
on page 35.]
    Mr. McIntyre. Please let us know. Thank you. Thank you, Mr. 
Chairman.
    Mr. Forbes. The gentleman from Mississippi, Mr. Palazzo, is 
recognized for 5 minutes.
    Mr. Palazzo. Thank you, Mr. Chairman. And I would like to 
thank our witnesses for their testimony. And I appreciate you 
appearing before this committee, and thank you for your service 
to our Nation. Brigadier General Killea, what role does the 
Marine Corps play in the highly contested threat environments 
A2 and AD?
    General Killea. Sir, thank you for that question. I think 
as a part of a larger naval team, the pre-integrated Marine 
Air-Ground Task Forces [MAGTF] operate from amphibious 
platforms and ships and also from austere sites ashore. And 
what this brings, that MAGTF, what that brings to this 
environment is the ability, when necessary, to obtain entry 
against a determined foe and also against a defended area. And 
what that does is it gives the--it facilitates freedom of 
action. So littoral maneuver, dispersed operations can help to 
uncover anti-access/area denial threats, and by neutralizing 
them support freedom of action. As well as, as I mentioned in 
my statement, securing advanced bases, strategic chokepoints, 
and even finding and securing areas where we can set up forward 
operating refueling points and arming points, not bases, but 
points where we can go in and quickly turn to challenge the 
enemy's targeting processes and continue to spread out the 
fight so it challenges their ability to defend. So in a 
nutshell, I think that is what the Marine Corps and the MAGTF 
bring to this environment.
    Mr. Palazzo. Thank you, General. I have no further 
questions.
    Mr. Forbes. Thank the gentleman for his questions. The 
gentleman from Connecticut, Mr. Courtney, is recognized for 5 
minutes.
    Mr. Courtney. Thank you, Mr. Chairman. Admiral Foggo, you 
sort of used the Odyssey Dawn recent experience, which is kind 
of a, you know, textbook example of what we are talking about 
here today, although as you point out, that was kind of a 
limited foe in terms of, you know, the challenges in other 
places.
    Admiral Foggo. Yes, sir.
    Mr. Courtney. In that first 48 hours, the Tomahawk missiles 
that were utilized, as you point out, a number of them came 
from submarines, the Providence, Scranton, and Florida. The 
Florida, obviously, had the highest payload capacity of the 
SSGN [guided missile submarine]. I was just sort of wondering 
if you could talk a little bit about, you know, what will 
happen when those SSGNs go off line if we don't replace that 
payload capacity in terms of just, you know, the whole approach 
that we are talking about here today.
    Admiral Foggo. Sir, thanks for that question. And it is a 
great question, because Florida shot over 100 missiles in the 
campaign. I think you and I have spoken before in a previous 
hearing on the 30-year shipbuilding plan, that that ship was 14 
months with a rotational crew when she came back through the 
Mediterranean, so it was absolutely spectacular.
    We have four SSGNs. I think Florida demonstrated the 
capability and the massive strike capacity that one platform 
can generate. And they will go out of service around 2026. And 
so I think it is absolutely essential that we make up for the 
loss of the four SSGNs. And our plan, which is part of the Air-
Sea Battle Concept when we talk programmatically, is to 
introduce the Virginia payload module on USS Virginia, with a 
number of missile launchers that will assist in boosting our 
capacity for TLAM strike in light of the loss of the SSGNs. 
Otherwise then, we will have, the rest of the force will be 
stressed to provide the same level of capacity and capability 
that we saw during Odyssey Dawn. That is not to say that we 
can't do it. There was Stout and Barry who did a fantastic job 
as the DDGs [guided missile destroyers] that were TLAM missile 
launchers during the campaign. And they have quite an inventory 
and payload of weapons.
    Mr. Courtney. So again, if we are talking about adversaries 
that are not as limited as Libya was, I mean obviously losing 
payload is really actually going to handicap us more in terms 
of overcoming those----
    Admiral Foggo. Yes, sir, absolutely. I mean TLAM is a 
fantastic weapon. It is precision strike. We were very, very 
concerned about collateral damage during that campaign. So 
otherwise then, you are putting a man in the cockpit at risk 
going in on a weapons system. The TLAMs were very, very 
effective against the SA-5, 165-kilometer surface-to-air 
missile, which the Libyans maintained and were often tested.
    And so that was their job. And then almost near 
simultaneously our Air Force brethren came in with TAC 
[tactical] air in the first night of the campaign to destroy 
fixed-wing targets on the ground and other C2 nodes. So you are 
absolutely right.
    Mr. Courtney. Thank you, Mr. Chairman. I yield.
    Mr. Forbes. Thank the gentleman. And one question I have, 
as we go to Mr. Wittman, is if you are looking at current ways 
that we can bring together the services so that we can fight 
the challenges we have to anti-access and area denial now, are 
you looking at what we currently have and how we best integrate 
that, or are you looking at what we need and how we get to that 
point? And if you are not looking at that, who is it that is 
looking at that?
    General Jones. Sir, we are looking at not only what we 
have, but what we are evolving to. And a good example of that 
is we continue to develop fifth generation fighters. The 
technology that they bring, the sensor integration, and the 
challenge of how do we integrate that information not only 
across the fourth generation fighters, but to other command and 
control assets that may need to be there is something that we 
need to work through in terms of the data links and how we will 
work that through. And so we are absolutely focused on future 
requirements as well as the current environments.
    And, sir, if I could return back on just briefly on your 
question about what we would protect in our budget, those are 
the things that we are focused on. But what I was perhaps not 
clear with is as a result of that what we are not able to focus 
on. And by focusing on these future capabilities that we will 
need to continue to integrate, then we are having to take 
decrements in our near-term readiness and modernization of our 
current fleet. And so we are faced in a somewhat untenable 
position of either maintaining our readiness for the future and 
continuing to advance in the anti-access/area denial 
environment, or having a more ready force now at the expense of 
that technological advance in the future.
    Mr. Forbes. That is crucial, because as all of you 
mentioned, we are seeing this evolving much quicker than we 
have ever seen it before. We have got to stay on top of that 
curve. But even things like the amount of munitions and all we 
have to make sure that you have got those amounts if we are 
going to be using these concepts. The chair recognizes the 
gentleman from Virginia, Mr. Wittman, for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today. I 
appreciate you taking the time to give us your perspectives on 
the Air-Sea Battle Concept.
    Brigadier General Killea, I would like to go to you and get 
your perspective on the Marine Corps' role within that Air-Sea 
Battle Concept. Looking at where we have been and where we are 
going with the size of our amphibious lead, as you know, it 
continues to be on the decline. The proposal is to retire early 
two more LSDs [Dock Landing Ship]. How does the size of our 
amphibious fleet affect the Marine Corps' ability to carry out 
its role in an Air-Sea Battle plan?
    General Killea. Thank you for that question, sir. That is a 
fantastic question, and I think that goes to the collaboration 
that has to go on amongst the services within the Air-Sea 
Battle Office. Once we identify the capabilities that we have, 
and then the gaps are identified from that, and then the 
services propose solutions to those gaps and the Air-Sea Battle 
Office will take those solutions and rack and stack them and 
then provide them and advocate the capabilities list that goes 
forward. So if that capabilities list includes additional 
amphibious shipping or something that could augment the 
capabilities of that amphibious shipping, that would come out 
of the functions and the process of the office. But I think for 
the Marine Corps, where we stand today with our amphibious 
shipping is actually on pretty good stead for the missions that 
we have, for our focus, for forward presence and crisis 
response, and as we get into a major combat operation that 
would involve this kind of environment, then our participation 
with that is only going to be as good as we are preintegrated 
with that joint force through the efforts that we have been 
talking about this morning. I hope that answers your question, 
sir.
    Mr. Wittman. It does, it does. So I take what you are 
essentially saying is that you will do what you can within that 
context. If there is a need for more and you don't have it, 
then it is going to be a problem?
    General Killea. Yes, sir, yes, sir, that will be a problem 
just based on resources, and then also the range of missions 
that the Marine Corps needs to address. My sense is that if 
something comes out of the air speed--I keep saying air speed--
Air-Sea Battle Office that prioritizes a specific Marine 
capability, which hasn't been the case yet, then it will become 
something that we push back to the service chief and the 
programmers to address.
    Mr. Wittman. Let me ask: I was at Quantico the other day 
and had the opportunity to visit with Dr. Burrow and his team 
with the development of the Amphibious Combat Vehicle [ACV]. By 
the way, they are doing a great job, on track for General Amos 
to make a decision. Tell me, in the Air-Sea Battle plan 
concept, what role does the ACV play in the need for the Marine 
Corps to have that online in being able to meet its role in 
that battle concept?
    General Killea. Sir, thank you for that question, and it 
goes back to the portion of my statement where I kind of 
stressed operational maneuver as well as technical advances and 
matching technologies that our adversaries may pose against us. 
I think that with the services being integrated in their 
capabilities, addressing what capabilities we would be facing 
in a specific AOR [area of responsibility], that having 
multiple maneuver units and deep strike capabilities is going 
to force the adversary to react to us. What we don't want to do 
is go to where he thinks we are going to show up and have a 
bullet-on-bullet, missile-on-missile type of fight.
    So what does the ACV bring? It brings a great--it is an 
enabler to the MAGTF, because it gives us maneuver options. 
Whether that is 12 miles offshore or 50 miles offshore, I don't 
know the answer to that right now, the replacement. We don't 
know the exact answer to that, but what I do know is that we 
are going to have to have the ability, when required, to gain 
entry against a, you know, determined foe but also against a 
protected area so that we can open up access. It is kind of a 
little bit backwards in what most people think about Air-Sea 
Battle, which is access to get entry. I think in some cases, 
you are going to have to--you may have a situation where you 
are going to have to do some entry to support additional access 
or freedom of access.
    Mr. Wittman. Very good. Thank you.
    Admiral Foggo, tell me this, I just had the opportunity to 
visit recently Australia and Singapore and talk to them about 
their relationship with the United States with the LCS 
[Littoral Combat Ship] now being not ported, but they are 
rotationally through Singapore and also Marine Corps presence 
now building in Australia. How important are our allies in the 
Asia-Pacific with the implementation of the Air-Sea Battle plan 
concept?
    Admiral Foggo. Sir, the allies are extremely important, not 
just Asia-Pacific but globally in any area where there might be 
an anti-access/area denial threat. So I think it is commendable 
that we are able to put our rotational LCS force into 
Singapore. It is a fantastic ship; I rode one out of San Diego 
a couple weeks ago. We were up at or in excess of 40 knots on 
the ship. The mission modules, which are maturing, are going to 
give us a tremendous mine warfare capability, ASW [anti-
submarine warfare] capability, ASUW [anti-surface warfare] 
capability. I think the allies understand that. And one of the 
most important things, and we talk about a lot of asymmetric 
capabilities that we hold from the perspective of hardware and 
force structure, one of the most asymmetric capabilities that 
we have as the United States of America that does not get 
mentioned enough in, my humble opinion, are our allies, and 
they are enablers, they are force multipliers, and they are by 
our side not just in the Pacific, Europe, Africa, all over the 
globe.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Admiral, can you elaborate on what Mr. Wittman 
just asked you in this regard, how do our allies even know what 
to do? I know we have mil-to-mil contact and all, but I have a 
number of them that come to my office. They are confused right 
now as to what Air-Sea Battle really means. They are trying to 
make decisions about their own procurement situation so they 
can integrate, and one of the questions we would have is, how 
are we engaging them as part of this process so that when they 
have a choice between procurement A and procurement B, they are 
getting the one that integrates best?
    And, secondly, how are you communicating those needs to us? 
Do we need a classified setting for that or what do we need to 
make sure that we are meeting the needs that you have?
    Admiral Foggo. Sir, as far as conveying the needs, that 
might be best to do in a classified setting. As far as our 
ability to communicate with the allies, we have several modem 
for communication. The first would be counterpart visits and 
country visits where Air-Sea Battle Concept comes up in many 
conversations.
    Secondly, I mentioned Global 13. That was our first war 
game where we have actually invited members of our five eyes 
partners and Japan to the war game, and so I think that was an 
eye opening experience for those partners who took a look at 
our Air-Sea Battle Concept in the five domains that I mentioned 
earlier. We will continue to do that, and we will continue to 
try to expand our ability to explain to our partners and to 
bring them into our implementation master plan. That is 
currently out in U.S.-only distribution. It looks at 10 mission 
focus areas. Many of the things that we do in the Air-Sea 
Battle Concept to assure access in the undersea domain, in the 
air domain, antijamming, and then the facilitation through 
force development activities, through exercising, training, and 
integration, tactics, techniques, and procedures, and a list of 
six things that we have asked our joint force and our service 
brethren to tell us how we can do better and adopt best 
practices.
    So your point is very well taken. We are at the infancy in 
sharing with our allies and partners, but as I said, that is a 
very, very powerful asymmetric capability to the United States 
of America. We need to leverage off of it.
    Mr. Forbes. Thank you, Admiral. The gentleman from 
California, Mr. Hunter, is recognized for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, gentlemen 
for being here. The first question, I guess, how much harder is 
this than AirLand? I guess that is it. I mean, we know what 
AirLand Battle is, and how you have got to bring it all 
together as a joint force, whether it is an asymmetric warfare 
or symmetric, relatively symmetric warfare. How much harder is 
this than that, if you had to give it, like it is 20 percent 
harder? I am just curious. I mean, how much harder is this than 
that?
    General Jones. Sir, it is going to be difficult to give you 
a quantitative number and a percentage, but I will say----
    Mr. Hunter. I mean, is it a lot harder? Is it kind of the 
same?
    General Jones. Sir, what I will share with you is that the 
environment is so much more complex than it was when we started 
AirLand Battle. And so this with--really focusing on cross-
domain, if you think of where we have advanced in terms of 
space, where we have advanced in terms of cyber, where we have 
advanced, and not only have we advanced but our adversaries 
have advanced.
    Mr. Hunter. But you would use that in an AirLand Battle, 
too, those things, space, cyber, but you wouldn't be floating 
while you do it.
    General Jones. Yes, sir, and my initial response was based 
off of where we started with AirLand Battle and where we are 
starting with Air-Sea Battle in terms of the levels of 
complexity.
    What we have found and what we actually hope to migrate to 
in Air-Sea Battle is the things that we worked with a focused 
effort in AirLand Battle, and got to the point where we don't 
use the term AirLand Battle anymore, but those concepts are 
still resident amongst the services. And so it is that initial 
focusing effort to go against an operational problem set, work 
to drive the institutional change amongst the services that 
gets to the point where it now becomes part of our normal 
lexicon, and so what I would compare in difference of 
difficulty is the nascent stages of AirLand Battle, the nascent 
stages of Air-Sea Battle, but with the ultimate goal of those 
becoming about the same where it is part of our normal 
processes.
    Mr. Hunter. So let me ask you this, then: When you get a 
new system like an LCS, or you get F-35 where we are 
discovering the operational plans for it and how we are going 
to use it and the Marine Corps is working on it, do we just fly 
five of them over here and land them here, we can refuel them, 
we don't need, you know, runways anymore, we don't need bases? 
When each service comes up with their own ways to deploy those 
new weapons systems, is your group the group that vets how that 
all works together at the joint level, or is that a joint thing 
or is that you when it comes to Air-Sea Battle or how does it 
work?
    Admiral Foggo. Sir, I would like to take that one on and 
leave it open to anybody else. It is a great question, and you 
mentioned AirLand Battle, and we have drawn a distinction 
between AirLand Battle as a strategy and Air-Sea Battle as a 
concept. There were, I think, if I am not mistaken, my staff 
has given me the right number, about 31 lines of effort in 
AirLand Battle. We took a hard look at those and scrubbed them, 
and we came up with the 10 mission focus areas I mentioned 
earlier for Air-Sea Battle, across the main operations, 
undersea warfare, war at sea, attack operations to defeat A2/
AD, active and passive defense, the list goes on. That is our 
playbook for Air-Sea Battle, and then the force development 
activities, I mentioned training and integration tactics, 
techniques, and procedures. To your point, if you take the F-
35, relatively new aircraft, in test and first airframe soon to 
be delivered, how are we going to deploy that, and who is going 
to decide what the best practices are? How are we going to get 
a synergy across the Air Force, the Marine Corps, and the Navy 
for the A, B, and C model? Great question.
    So we sent out this implementation master plan about a 
month ago, told all the services, all the combatant commanders, 
and all the fleet commanders, the Echelon II, to absorb it and 
come back to us in November with recommendations on what force 
development activities we need to do to enable Air-Sea Battle 
and how we are going to prevail in each one of these mission 
focus areas. Following that, we will assemble that and we will 
get those lessons redistributed to all of the people I 
mentioned, combatant commanders, Echelon II, and we are going 
to bring them to Washington in January for a conference, budget 
permitting, and sit down at the table and adapt a plan and a 
way ahead for the future that leverages off of some of the 
things the Marines do, the Air Force do, and individual 
geographic combatant commanders, who may have a different view 
of the world than somebody else.
    Great case in point. CENTCOM commander, NAVCENT [U.S. Naval 
Forces Central Command] and AFCENT [U.S. Air Forces Central 
Command] probably ought to be the best at mine warfare in the 
world, because that is what they do in the Straits of Hormuz, 
and they have tested it twice during international mine 
countermeasures exercises, and they probably have lessons 
learned for the PACOM [U.S. Pacific Command] commander with his 
mine problem in Korea, and so we are going to bring all that 
together.
    Mr. Hunter. So let me just, to try to get my hands around 
it just here as my time runs out. It looks like you are 
bringing together all the new technologies that we have, 
everything from UCAS [Unmanned Combat Air System], F-35, LCS, 
EFV [Expeditionary Fighting Vehicle] or whatever it is called 
now, ACV, you are bringing all those things together to counter 
the newer technologies that our symmetric foes or possible foes 
would bring against us, and that is what you are doing. I mean, 
is that basically it?
    General Jones. Sir, basically. What I would like to do, I 
would like to, if I can, circle back to your F-35 question as 
an example, and so what I will tell you is that this 
organization is not geared to drive the multi-service 
development of tactics for any particular program. That is 
still the responsibility of the MAJCOM [Major Commands], and 
the MAJCOM commanders for us, and we do that in concert with 
the different services as they approach their way through. So 
we have established methodologies that will figure out how to 
use any individual weapon system. That is not the purview of 
this organization to drive a tactics development, but what we 
are able to do is use as a prism as we look at, as the services 
identify capabilities gaps, as the services look about the 
resources that they are trying to bring to address those gaps. 
A central organization, a multi-service organization that can 
be a prism through which we assess those and help the services 
assess those is very valuable as we start looking to maybe not 
so much about what we add to a program but the deficit, the 
challenges of things that may have to be cut. This organization 
can be a prism to look through those to identify the 
capabilities that might be remaining.
    Mr. Forbes. The gentleman from Texas is recognized for 5 
minutes.
    Mr. Conaway. No questions.
    Mr. Forbes. Then if the gentleman has no questions, I have 
just three left. As I said, I deferred mine until the end.
    The first one is, we understand that the Secretary of 
Defense released the Defense Strategic Guidance in January 
2012, but as yet, an actual defense strategy has not been 
released. How is the Department designing and executing 
operational concepts such as Air-Sea Battle in the absence of 
an actual defense strategy? In other words, what defense 
strategy is the Joint Staff, combatant commanders, and services 
using as the baseline to design operational concepts such as 
Air-Sea Battle, and if a defense strategy does exist in your 
view, can you describe it for us and what formal document 
articulates it for the public?
    Admiral Foggo. Sir--go ahead if you like, Mike.
    General Stough. Sir, I was just going to say from the joint 
perspective, from the view of the Joint Staff at this point, 
really the focal point as far--when we talk about force 
development activities, which is really I think what we are 
talking about here, it is the Defense Strategic Guidance, it is 
the 10 missions that are laid out there. For example, we are 
talking about here the mission to defeat the anti-access/area 
denial challenge, to be able to address that, and--but that is 
a precursor, if you will, or is foundational to all the other 
missions that we need to be able to accomplish.
    Mr. Forbes. General, is it your thought that that 
guidance--and how many pages was that guidance? Eleven?
    General Stough. I think that, yes, sir.
    Mr. Forbes. About 11 pages, that that guidance was in fact 
or now our national defense strategy?
    General Stough. No, sir, I am not that--I think our 
strategy was published probably 2011 is the last strategy that 
was published.
    Mr. Forbes. Okay. So we had a strategy in 2011, but the 
guidance has basically changed that strategy, has it not, or--I 
am just asking. I am not----
    General Stough. That is a good question. I can't say it has 
fundamentally changed the strategy because the missions that it 
has outlined----
    Mr. Forbes. And maybe you can take that for the record. We 
don't want to put you on the spot, but one of the things we are 
wrestling with now is what is our strategy? You know. We don't 
want to have a strategy that develops based on our procurement 
policy. We would prefer to have a strategy that we are doing 
our procurement after that, but at least for most of us sitting 
up here we have had a rough time getting our arms around that 
or getting someone that can answer that for us, and I don't 
think we want to, we feel comfortable relying on an 11-page 
guidance and saying that is our strategy. So if you guys would 
confer at some point in time and get back to us for the record 
on that, I think all of us would appreciate that.
    [The information referred to can be found in the Appendix 
on page 35.]
    Mr. Forbes. My second question, there has been much written 
and discussed regarding perceptions about the escalatory nature 
of the Air-Sea Battle operational concept. Some have gone so 
far as to conclude, incorrectly in my opinion, that this 
operational concept presupposes conventional strikes into China 
and encourages the potential for nuclear escalation. Can you 
please clarify for us today how escalation management in phase 
zero and phase 1 of contingency operations is designed into 
this concept?
    Admiral Foggo. Yes, sir. I think that is a misperception 
with respect to one particular adversary and one geographic 
domain. As I said, Air-Sea Battle looks at anti-access/area 
denial strategies globally, and part of what we do in phase 
zero is being there to try to shape the battle space and to 
know through our awareness, through our systems of intelligence 
surveillance and reconnaissance what is going on in the region 
and how the region is changing, and then to be able to react to 
it.
    So it is a very deliberate process through Air-Sea Battle. 
We are there, we are present. You mentioned the DSG [Defense 
Strategic Guidance]. Part of the DSG was to rebalance to the 
Pacific because it is such an important region, but not just 
militarily, for all the reasons in the DIME [diplomacy, 
information, military, economics] concept. And so we are there, 
we are watching, and then we react accordingly to try to 
prevent any kind of escalation or regional conflict from 
burgeoning out of control, and that would apply in other places 
as well, in the Mediterranean, currently a very interesting and 
crisis-oriented area in the Eastern Med [Mediterranean] and 
also around Africa, as we saw in the past weekend.
    Mr. Forbes. Thank you, Admiral. And the last question I 
have for you is this, first of all, preface on it. Congressman 
McIntyre and I and several of the members of the committee 
actually wrote a letter that I mentioned to each of you on 
Tuesday that we sent to leadership of both parties, and also 
requesting that they have a classified briefing regarding the 
impacts to national defense that is taking place based upon 
sequestration and where that is. Whatever decisions they make 
after they have that knowledge, it is up to them, but to not 
have the knowledge is concerning to many of us.
    We would like to hear, and I know Mr. Courtney asked you a 
little bit of this, and General Jones you responded somewhat, 
but as you see sequestration playing out, what impacts is that 
going to have to the Air-Sea Battle Office, to the Air-Sea 
Battle Concept? If you know any of that today, you can share 
with us, fine, we would appreciate it. If you want to get back 
to us for the record with that, we would welcome that. If you 
feel that needs to be done in a classified setting, we 
understand that. But I want to make sure you have the 
opportunity for the record at some point in time, be it today 
or whenever you feel appropriate, to give us that because I 
think you feel appropriate to give us that because I think that 
is vitally important that we be able to communicate that.
    So I open that to you, and maybe, Admiral, since you have 
been quarterbacking some of this, any comment on that now or is 
that something you would like to get back to us on, and how do 
you feel about that?
    Admiral Foggo. Sir, I would like to comment on that now, 
and I think our Chief of Naval Operations, and I will defer to 
the others here in a moment, made a pretty good and clear 
statement of where the Navy would be in particular with regard 
to Air-Sea Battle under the current PRES BUD 14 [President's 
Budget for fiscal year 2014], and then again under the full 
impact of sequestration with the Budget Control Act from now 
through 2023 and a $500 billion reduction in our ability to put 
resources into Air-Sea Battle.
    So some of the things that we remain concerned about would 
be our P-8 program would be delayed, multi-function towed 
arrays for DDGs, no change, and that is good as far as ASW and 
the undersea domain is concerned. LCS mission packages for ASW 
would be delayed. No change in the Virginia payload module. LCS 
mine mission modules still deliver the first increment 2015. On 
air and missile defense, integral and part of the Air-Sea 
Battle Concept, our surface electronic warfare implementation 
program would be slowed down, that is antijamming, it is 
critical to Air-Sea Battle. The evolved SeaSparrow missile 
still delivered on the same rate to 80 platforms by 2020. 
Advanced missile defense radar, only four ships would receive 
it as opposed to a larger number under PB14 [President's Budget 
for fiscal year 2014]. Infrared search and track, which is 
another antijamming capability that uses infrared instead of 
other means, delayed by about 2 years. The radio frequency kill 
chain in AM 120 delta delayed to about 2020, and the naval 
integrated fires and counter air with our E-2D Deltas, we would 
have a reduction in the number of air wings that would be fully 
complemented by 2020. And so that is the impact on the 
capabilities which ultimately would have an impact on our 
ability to carry forward Air-Sea Battle, so whatever relief you 
can provide us we would appreciate. And I defer to my Air Force 
counterparts.
    Mr. Forbes. Thank you.
    General Jones. Sir, I would like to. I will address that, 
and if you don't mind at the end, I would like to circle back 
to your question about escalatory perceptions.
    Sir, we absolutely will feel the impact of the ongoing 
sequester. As I said before, we are trying to protect and will 
try to do our best to protect the F-35, the KC-46 long-range 
strike development, and our space strategic warning and secure 
communications. However, we are faced with making some 
difficult choices that may require the need for us to divest up 
to 550 aircraft and over 25,000 airmen. So, sir, we are already 
facing a fleet that is aging an average of 24, 25 years, and 
getting older, and as we have to make those hard choices, the 
key thing that we are faced with is a force that will be 
smaller, and with the trades that we have to make, that force 
is going to take offsets in readiness, and so you will have a 
force that will be smaller, it will also be less ready and 
therefore less responsive to our ability to meet the Nation's 
needs if and when we are required. We are protecting everything 
that we need to do to do the current operational fight that is 
out there, and we are meeting the combatant commander demands, 
but the risk comes at what is available to do anything else 
that our Nation may evolve. And, sir, I will be happy to come 
back to you for the record with a full list of what those 
impacts may be.
    [The information referred to can be found in the Appendix 
on page 35.]
    General Jones. I would like to address your question about 
escalatory concepts, though, sir. And what I would like to 
clear up is the perception perhaps may be that this Air-Sea 
Battle is a thing that if a conflict happens you reach over to 
the shelf and you pull out the Air-Sea Battle chip, and you 
execute. What Air-Sea Battle is designed to do, sir, is provide 
our combatant commanders a range of options to address a 
problem that is out there. It is not one thing, it is not a 
given playbook. It is the conceptual design that will enable 
our services to be networked and fully integrated, and then our 
combatant commanders have the responsibility to manage how they 
use the forces, and the full range across the diplomatic 
information, military, and economic environments to achieve the 
desires that they need.
    So, sir, I think what I would offer to you is those that 
think there is an escalatory construct to this, my counter 
would be that implies that it is a push a button and this 
happens, this is nothing but an enabling concept that provides 
a full range of options to our combatant commanders to apply as 
they see fit for the environment that we are in.
    Mr. Forbes. General.
    General Killea. Yes, sir, thank you for that question, and 
it circles back to Congressman McIntyre's question that he 
asked me that I took for the record about top five things to 
put into ASB. I took that as additional capabilities and not 
capabilities that we currently are fielding or have fielded to 
protect. I think the entire MAGTF is an enabler to the ASB 
implementation and concept. We add capacity to the joint force, 
and capacity is critical when the potential adversaries are 
matching that capacity, or in some cases, succeeding it with 
lesser technology, but also very lethal capabilities.
    So that capacity is important to make sure that a potential 
foe has to defend across a vast area, and it goes back to the 
maneuver that the MAGTF provides to the solution, whether it is 
from the sea or ashore in austere sites.
    But for your specific question on sequestration and what 
that will do to current programs, our focus right now is on 
forward presence and crisis response and readiness, and the 
Commandant has been clear on that, and so something has to 
give, and I think--I don't think, it has been stated that that 
would have to take, you know, something away from the 
modernization of forces down the road, something that would 
have to be delayed. It wouldn't be something that we shelve, it 
would be something that we would keep focused on, but the 
priority for the Marine Corps right now is forward presence, 
crisis response, and the readiness of those forces and the 
forces that would follow in behind them.
    Mr. Forbes. Very good. Well, gentlemen, thank you. General 
Cheek, I am sorry.
    General Cheek. Yes, sir, if I may, I think it is a great 
question in the way it is captured, so all the questions about 
strategy really feed into this because we are talking ends, 
ways, and means, and so when our means are reduced under 
sequestration, there is a direct effect on both the ends that 
we can achieve and the ways that we would go about doing it, 
which I would categorize Air-Sea Battle as a way of getting an 
end of keeping open global commons, if you were, access to the 
global commons.
    So if in the times of the reduced resources we make a 
choice to resource something like Air-Sea Battle, there will 
be, as my colleague here pointed out, there will be a cost in 
some other area, we will have reduced capability. So I know for 
us, we share the same focus of our forward forces being ready 
for combat. The next tier of forces ready to deploy, and then 
there is other forces, frankly, we are going to struggle to 
find the funds to keep them ready for an unforeseen 
contingency.
    So the risk is building, you know, as we speak, and I think 
the sequestration will definitely affect Air-Sea Battle. It may 
delay it. It may weaken it, but it will have an effect, I 
think, in a number of areas that we are responsible for.
    Mr. Forbes. Thank you. Any other comments? Well, if not, 
let me first of all thank you all for your service to our 
country. Thank you for being here and for answering our 
questions today and enlightening us on this. I would like to 
leave you, again, with the opportunity, if you would, to give 
us, with any specificity that you would like to, what you 
believe the impact of sequestration could be on what you are 
trying to do and how you are doing it; and then if you would, 
as part of that, if you would tell us the additional risk that 
we are having to accept by having those shortfalls, because it 
all equates to risk to our men and women that are fighting, and 
sometime we miss that. It helps us give a picture that we can 
paint to individuals as we are fighting to get this turned 
around.
    Mike, did you have anything else? Mr. Conaway, anything 
else? With that, then, thank you all and we are adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                            October 10, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 10, 2013

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 10, 2013

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    General Stough. Our current strategies are the 2010 National 
Security Strategy, the 2010 Quadrennial Defense Review Report, and the 
2011 National Military Strategy. The writing of the Joint Operational 
Access Concept (JOAC) was informed by these strategies. The JOAC was 
also informed by the congressional testimonies and expressed needs of 
the Combatant Commands, and a detailed examination of the emerging 
operating environment.
    In January 2012 the Secretary of Defense released, Sustaining 
Global Leadership: Priorities for 21st Century Defense, to articulate 
priorities for 21st century defense that sustains U.S. global 
leadership. This guidance does not replace current strategies but 
provides amplifying guidance to reflect the President's strategic 
direction to the Department.   [See page 23.]
    General Jones. Sequestration impacts to the ASB Office itself will 
be minimal, if any. The office is very small and requires minimal 
resources to continue concept development and implementation effort 
coordination. From an Air Force perspective, sequestration level 
budgets will severely impact concept implementation in the same way 
they will impact the Air Force at large. We'll likely be forced into 
choosing between near-term readiness and sufficient forces/force 
structure that are properly modernized to address A2/AD threats. We'll 
have to assess our ability to sustain major exercises and many of our 
flying units won't be able to maintain the requisite readiness levels 
to meet operational requirements. Regardless of readiness impacts, 
we'll almost certainly have to pare back forces/force structure 
(potentially up to 25,000 Airmen and over 500 aircraft, including 
entire fleets of aircraft). Modernization and recapitalization of 
existing capabilities to address A2/AD threats will be significantly 
impacted, though we'll do our best to sustain our top three acquisition 
programs: the F-35, KC-46, and the long-range strike bomber.    [See 
page 25.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. MCINTYRE
    General Jones. Seymour-Johnson Air Force Base was included in the 
Strategic Basing Process to identify the bed-down location of the first 
KC-46 Main Operating Base and the Formal Training Unit. It will 
continue to be considered in future rounds of KC-46 basing.    [See 
page 15.]
    General Killea. The ASB Office has previously identified Advanced 
Electronic Warfare/Operations in a Digital Radio Frequency Memory 
environment, Undersea Dominance, Long-Range Strike/Countering Long-
Range Integrated Air Defense Systems, Multi-Domain Command and Control/
Intelligence, Surveillance, and Reconnaissance, and Integrated Air and 
Missile Defense as critical capability areas needed to operate in an 
A2/AD environment. It is vital to note, however, that this list focuses 
narrowly on gaining access in the global commons, and fails to address 
either the requirements for entry and landward operations or overall 
sustainment of the Joint Force in an A2/AD environment. As such, the 
identified ASB capability areas represent a subset of the greater 
requirements needed for the Joint Force to achieve operational access 
and project power despite advanced threats. In short--ASB's 
capabilities set the conditions and enable follow-on decisive 
operations and should not be viewed as either comprehensive or an end 
unto themselves. A2/AD threats do not end at sea or in the other global 
commons, but persist well into an adversary's littorals and ashore. 
Advances in and proliferation of area denial systems such as Guided-
Rockets, Artillery, Mortars, and Munitions (G-RAMM) will present Marine 
and Army forces with equally daunting challenges in gaining access--
especially when combined with advanced air, space, and cyber 
capabilities. Additionally, as can be seen from the recent disaster in 
the Philippines, access challenges can also be caused by natural 
disasters that make ports, airports, and roads unusable. Such 
challenges will require different capabilities to overcome them outside 
the list provided by the ASB Office. These access challenges as well as 
those cited in the ASB Concept are outlined in the JOAC and will be 
further defined and developed through implementation of it and its 
supporting concepts which include the Joint Concept for Entry 
Operations (JCEO) as well as ASB.
    Accordingly, the Marine Corps sees the solutions to countering A2/
AD threats much more broadly, and we see several planned and existing 
capabilities as critical as we go forward:

#1 F-35B

    Future A2/AD threat environments will place a premium on stealth, 
dispersion, and tactical flexibility. The F-35B Lightning II will reach 
its initial operational capability in 2015 and will provide the Marine 
Air Ground Task Force (MAGTF) and the Joint Force Commander (JFC) with 
a transformational leap in capability. Fundamentally, the F-35B 
supports our doctrine of maneuver warfare and our operational 
requirement to provide close air support while operating in austere 
conditions. Additionally, the F-35B's short take-off and vertical 
landing capability will help increase sorties and greatly complicate an 
adversary's planning by enabling operations from mobile, dispersed 
forward sea-based and remote landing sites. The F-35B is an essential 
part of our effort to modernize our aging aviation fleet and exploit 
fifth generation technologies. Advanced stealth and other technologies 
in the aircraft will greatly enhance our capabilities as America's 
expeditionary crisis response force.

#2 Amphibious Surface Assault

    Advanced guided munitions threats will require expeditionary forces 
to operate further out at sea and at greater risk in the littorals and 
ashore. Nothing is more important to the Marine Ground Combat Element 
in this environment than an improved surface assault capability such as 
the Amphibious Combat Vehicle (ACV). The current amphibious assault 
vehicles are 1970's vehicles with 1960's technology. The ACV is 
envisioned to provide improved speed and range to enable over the 
horizon ingress, enhanced survivability, firepower, and inland mobility 
to potential hotspots. An improved vehicle such as the ACV will help 
the Joint Force to ensure freedom of maneuver and rapidly project power 
inland from the sea despite increasingly sophisticated threats. When 
coupled with the long-range vertical assault capabilities of the V-22, 
forward deployed amphibious forces will possess the capacity and 
tactical flexibility to rapidly get to problems and potentially diffuse 
them before they escalate into crisis. The Marine Corps is continuing 
to seek the balance of required performance and affordability with the 
amphibious assault vehicle replacement.

#3 Amphibious ships

    America is a maritime nation and forward deployed Navy and Marine 
Corps forces area vital elements of national security that help ensure 
freedom of navigation and operational access for the Joint Force. The 
backbone of the Naval Expeditionary Force and our ability to project 
force and secure operational access despite A2/AD threats is a 
sufficient number of modern, capable, amphibious platforms that are 
interoperable with the Joint Force, and survivable against increasingly 
challenging A2/AD weapons that include anti-ship ballistic missiles, 
anti-ship cruise missiles, sophisticated mines, subsurface threats, 
etc. As critical as the number of amphibious platforms available during 
operations is, equally critical are their organic C2 suites and 
interoperability with the forces ashore, the supported Joint Force 
Commander, and adjacent joint and coalition forces.
    Due to current fiscal challenges, we must accept risk in the number 
of amphibious ships to a fiscally constrained fleet of 33 amphibious 
warships, translating into 30 operationally available ships if 
readiness levels are significantly improved. Thirty operationally 
available amphibious warships represent the minimum capability and 
capacity necessary to fulfill our Combatant Commander commitments for 
sea-based forcible entry.

#4 Readiness:

    The stealth, speed, and precision of advanced A2/AD threats will 
require U.S. forces to maintain a high state of personnel and equipment 
readiness in order to rapidly respond and seize the initiative. Our 
credibility as an effective deterrent to an A2/AD capable adversary, as 
well as our success in that environment will be largely determined by 
our readiness. Certain risks must be accepted in order to ensure that 
the operating forces--particularly those operating at the forward 
edge--maintain the highest state of readiness possible. Readiness is 
the aggregate of the investment in personnel, training, and equipment 
to ensure that units are prepared to perform missions at any given 
time. Readiness is directly linked to resources and we are consuming 
tomorrow's ``seed corn'' to feed today's requirements, leaving less to 
plant for the future A2/AD challenges. In order to have the 
capabilities needed to operate in an A2/AD environment we need 
flexibility in our funding for readiness.

#5 Force Posture:

    An important element to gaining and maintaining operational access 
is a continued focus on not losing it in the first place by 
establishing and nurturing partnerships with regional friends and 
allies. To this end a balanced force posture, forward deployed--both 
afloat and ashore--conducting cooperative engagement and training 
activities, and ready to respond to crisis is critical to deterring 
conflict and maintaining positional advantage should deterrence fail. 
Naval expeditionary forces are a key element in a balanced force 
posture, and nowhere is this requirement more acute than in the Pacific 
theater. The Navy-Marine Corps team has been continuously forward based 
in the Pacific for over 70 years and a ``pivot to the Pacific'' is like 
returning home. The ongoing initiative to adjust our force laydown 
represents much more than a simple redistribution of forces designed to 
relieve pressure on our Japanese hosts. A reorientation on the Pacific 
presents opportunities for cooperative engagement and training along 
with our allies and partners in a region that includes 7 of 15 major 
U.S. trading partners and 5 of our nation's most important mutual 
defense treaties. A persistent Pacific presence and forward-leaning 
operational posture reinforces our national commitment to this region 
and highlights the importance to unencumbered access to U.S. national 
security.
    A significant concern with maintaining this Pacific posture is the 
budget and the likelihood of continued sequestration beyond 2013. CMC 
initiated a study to identify the future Marine Corps force structure 
that would best meet the NSS requirements, while maintaining a high 
rate of readiness. A 174K force design was determined to best balance 
risk and resources with our most likely future operational environment. 
Based on the detailed planning of an internal working group and in 
conjunction with independent analysis, we have determined that within 
sequestered-like budgets that our force design of 174K is the lowest 
temporary level that can retain America's crisis response force. This 
provides a minimum acceptable level of readiness, while maintaining 
forward presence as a part of the Navy-Marine Corps team. This force 
structure we would likely be forced to accept would not be the force 
structure our strategy required, it would simply be the best we could 
put forth with the resources we were given.
    In summary, the Navy-Marine Corps team is essential to countering 
future A2/AD threats and we are committed to fielding trained and ready 
forces with the best equipment the nation can provide. The Navy/Marine 
Corps team uses the advantage of all domains to project naval power at 
the time and place of our choosing. The F-35B is the future of tactical 
aviation and its development remains on track but the continued support 
of the Congress is vital. The ACV is our number one ground procurement 
priority but our solution must be affordable and we intend to get it 
right. A forward postured, agile Marine Corps presence is largely 
dependent on a fleet of modern, capable, and ready amphibious ships and 
support platforms. The current ship-building plan is adequate but it is 
not without risk. Forward deployed Marines must be ready to respond to 
a range of possible scenarios that range from providing security and 
humanitarian relief to conducting combat operations. Regardless of the 
size of the force, the Marine Corps is committed to ensuring that they 
will be poised and ready to respond when called.    [See page 14.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 10, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Is the Air-Sea Battle strategy a new concept? If not, 
why has the concept been formalized with an official office?
    Admiral Foggo. First, it's important to note that Air-Sea Battle 
(ASB) is not a military strategy. It is an evolutionary set of ideas 
focused on defeating threats to access in order to enable follow-on 
operations--operations which could include military activities as well 
as humanitarian assistance and disaster response. ASB is a concept that 
enables the Joint Force to continue to operate in an anti-access area 
denial environment as directed in accordance with the 2012 Defense 
Strategic Guidance Joint Force mission to Project Power Despite Anti-
Access/Area Denial (A2/AD) Challenges.
    As a supporting operational concept to the Chairman's Joint 
Operational Access Concept, ASB focuses on shaping any potential 
adversary's anti-access and area denial environment to achieve access 
and freedom of action in order to enable concurrent or follow-on joint 
force power projection operations to achieve decisive results. By 
identifying the actions needed to counter threats to the global 
commons, the materiel and non-materiel investments required to execute 
those actions, and the institutional changes needed to sustain them, 
the ASB Concept serves to spur the development of better integrated 
air, land, and naval forces required to address evolving threats to 
access to ensure freedom of action in the air, space, cyberspace, and 
maritime domains.
    In the fall of 2011, following initial concept development by the 
Departments of the Navy and Air Force, and recognizing the value of 
further development and implementation of the concept, the Vice Chiefs 
of all four Services signed a memorandum of understanding to officially 
create the ASB Office and further build on the framework to implement 
the ASB Concept. While at first this effort was outside the Joint Staff 
and focused on primarily air and naval capabilities--it has since 
become integrated into a larger force development effort focused on 
capabilities in all domains including those needed to gain and maintain 
access ashore.
    Mr. Forbes. Is the Air-Sea Battle Office sufficiently resourced 
with funding, office space and personnel at a level to be effective and 
efficient?
    Admiral Foggo. The Air-Sea Battle (ASB) Office, as currently 
staffed and resourced, provides a fiscally efficient construct to 
enable further development and implementation of the ASB Concept 
through existing Service channels and processes. The office is manned, 
funded, and located within existing Service headquarters budgets, 
personnel, and spaces.
    Mr. Forbes. What is the annual budget of the Air-Sea Battle Office 
and how does it compare to other offices with the same responsibilities 
within the Joint Staff, OSD Office of Net Assessment, CAPE, and the 
JROC?
    Admiral Foggo. The Air-Sea Battle (ASB) Office does not have a 
specific/unique budget line. The ASB Office stood up from within the 
Services by redistributing existing headquarters billets and office 
space from each Service. Funding for office activities comes from the 
funding line that supports all headquarters personnel from each of the 
Services. For example, individual travel funds come from the Service 
headquarters staff directorate of the participating individual.
    Mr. Forbes. Is the Air-Sea Battle Office workload sufficient and 
proportional enough to the budget, personnel, administrative operating 
resources and support staff provided by each of the services? How was 
the Air-Sea Battle Office staffing and budget determined?
    Admiral Foggo. Yes. Between concept implementation, programmatic 
efforts, wargaming, experimentation, and communications, the Air-Sea 
Battle (ASB) Office has more than a sufficient workload for the 
assigned personnel and support staff.
    Under the ASB Concept Implementation Memorandum of Understanding, 
the Services established a governance structure consisting of a flag-
level ASB Executive Committee (EXCOM) that convenes on a quarterly 
basis; a Senior Steering Group (SSG) that convenes on a monthly basis; 
and supporting ASB Office staff charged with implementing the Concept. 
The supporting staff is composed of personnel from each of the four 
Services--sourced from existing military positions (i.e., ``taken out 
of hide'')--with the mission to foster the development and adoption of 
the related doctrine, organization, training, materiel, leadership and 
education, personnel, and facilities (DOTMLPF) solutions based upon 
Air-Sea Battle's conceptual design.
    Current ASB Office manning:


----------------------------------------------------------------------------------------------------------------
            Navy                      Air Force                     Marines                      Army
----------------------------------------------------------------------------------------------------------------
4 Military                   2 Military                   1 Military                  1 Military
----------------------------------------------------------------------------------------------------------------
4 Contractors                1 Contractor                 1 Contractor
----------------------------------------------------------------------------------------------------------------
                             1 Civilian                                               1 Civilian
----------------------------------------------------------------------------------------------------------------

    <greek-l>Navy Air Force Marines Army 4 Military 2 Military 1 
Military 1 Military 4 Contractors 1 Contractor 1 Contractor 1 Civilian 
1 Civilian deg.
    The ASB Office does not have a specific/unique budget line.
    Mr. Forbes. Before the Air-Sea Battle Office was established in 
2012, how did the services determine capability gaps, shortfalls, 
requirements and programmatic budget priorities for training, equipping 
and operating in anti-access/area denial environments?
    Admiral Foggo. Each Service has long-standing processes used to 
identify their specific capability requirements in order to inform 
resource prioritization decisions. None of the Air-Sea Battle Office 
analysis of force development activities conducted within each of the 
Services is intended to alter these existing processes. The operational 
environment, to include current and anticipated threats, remains an 
important consideration for Service resource decisions. The function of 
the Air-Sea Battle Office is to provide a more complete and thorough 
level of integration across what would otherwise be more service-
centric solutions to the A2/AD challenges.
    Mr. Forbes. Do the services assess the roles and functions of the 
Air-Sea Battle Office as redundant or additive when compared to 
existing functions within current organizational constructs and 
authorities of each respective service's A8, N8/N9, or DCMC(P&R) 
equivalent?
    Admiral Foggo. While still in the early stages of development, the 
Air-Sea Battle (ASB) Office provides a complementary perspective to the 
analyses conducted by the Services. The ASB Office provides a focused 
view on a relatively narrow problem through a multi-domain and multi-
Service lens. This additional perspective enhances planning, 
communicates individual service viewpoints, encourages increased 
service collaboration, and acts as a touchstone for Service resource 
sponsors and programmers to use in their established deliberations.
    Mr. Forbes. How are the roles, functions and policies of the Air-
Sea Battle Office integrated into each service's Planning, Programming, 
Budgeting and Execution (PPBE) process and what authorities is the Air-
Sea Battle Office permitted to exercise in the development of a 
service's budget program?
    Admiral Foggo. The Air-Sea Battle (ASB) Memorandum of Understanding 
explains the organizational structure, as well as the responsibilities 
and authorities of the ASB Office. To summarize: the ASB Office 
identifies key capabilities to enhance the ASB Concept and shares these 
with the Services. The ASB recommendations are considered in the same 
process as other Service doctrine, organization, training, materiel, 
leadership and education, personnel, and facilities (DOTMLPF) 
recommendations. Programmatic decisions on these capabilities are a 
Title 10 responsibility of the Service Chiefs. As such, the ASB Office 
has no unique authorities in the development of the Services' budget.
    Mr. Forbes. How do the services assess the effectiveness of the 
Air-Sea Battle Office in supporting the annual Planning, Programming, 
Budgeting and Execution (PPBE) process?
    Admiral Foggo. The Air Sea Battle (ASB) Office identifies key 
capabilities to enhance the ASB Concept and shares these with the 
Services. The Services view the Air-Sea Battle Office as providing a 
valuable multi-Service ``joint view'' perspective on capabilities and 
recommended solution sets. In the Navy, the effectiveness is 
demonstrated by the increasing incorporation of identified ASB 
capabilities in the PPBE process. ASB is expected to be a multi-year 
process, whereby the Services will continue to strengthen and enhance 
their habitual relationships, and more closely integrate their 
``organize, train, and equip'' actions.
    Mr. Forbes. How do service 3-star programmers integrate Air-Sea 
Battle products into the annual budget process and what percentage of 
Air-Sea Battle recommendations have been incorporated into the 
service's budget to date?
    Admiral Foggo. The Air-Sea Battle (ASB) Office, along with OPNAV 
N81 (Assessments), evaluates the ASB Concept with respect to capability 
assessments to identify specific capability gaps and program 
requirements for incorporation into programming guidance and the Front 
End Assessment (FEA). The resource sponsors and programmers consider 
these ASB inputs throughout the Sponsor Program Proposal (SPP) 
development and review process, giving special consideration to those 
that align with CNO priorities and compliment other FEA and SPP 
requirements and capabilities.
    ASB Office recommendations are one of many inputs given to 
programmers. A high percentage of ASB recommendations are acted upon 
favorably, but no defined percentage can be stated because 
recommendations are typically capabilities-based and not discrete 
resource allocation recommendations. Ultimately programmatic decisions 
on capabilities are a Title 10 responsibility of the Service Chiefs.
    Mr. Forbes. How are Air-Sea Battle Office recommended capabilities 
tracked by the services and the Joint Staff during year of budget 
execution to meet identified capability gaps and shortfalls of the 
combatant commanders?
    Admiral Foggo. The Services track budget execution of all resource 
allocations; they do not uniquely track Air-Sea Battle (ASB) 
recommendations outside the ASB Office.
    Mr. Forbes. In the view of the service programmers, how did the 
Air-Sea Battle Office specifically influence the outcome of the Fiscal 
Year 2014 President's Budget submission and the FY15-FY18 future years 
defense program? Provide under classified cover if necessary.
    Admiral Foggo. Navy programmers carefully balance strategy, 
capabilities, capacity and resources in building a future years defense 
program. In our FY14 President's Budget (PB-14) submission, our 
development of future capability, as benchmarked to support our 
rebalance toward the Asia-Pacific, is guided in large part by the Air 
Sea Battle (ASB) Concept, which implements the Joint Operational Access 
Concept. Both of these concepts are designed to assure U.S. forces 
freedom of action and access to support deterrence, assurance of our 
allies and partners, and the ability to respond to crises. PB-14 
includes investments in both FY14 and over FY15-18 to focus on assuring 
access in each domain, often by exploiting the asymmetric capability 
advantages of U.S. forces across domains.
    Specifically, PB-14 incorporated the ASB Concept in determining the 
following investments to improve our ability to counter anti-access/
area-denial threats:
    <bullet>  Mine threat: Countering potential enemy ability to use 
mines to deny access to Naval forces continues to be a significant 
emphasis in the near term. The Navy budget request funds Littoral 
Combat Ship (LCS) MCM Mission Package development to include MH-60S 
helicopter Airborne Laser Mine Detection System (ALMDS) and Airborne 
Mine Neutralization System (AMNS) systems, MCM hull-mounted sonar, and 
accelerates fielding of the MK-18 UUV and Seafox mine neutralization 
system.
    <bullet>  Small boat and anti-ship missile threat: Small boats with 
explosives and anti-ship missiles remain a potential threat to our 
forces in the constrained waters of the Arabian Gulf. The Navy budget 
request funds integration of Advanced Precision Kill Weapon system 
(APKWS) into our MH-60R helicopters to counter small boats with 
explosives or anti-ship missiles. The Laser Weapons system (LaWS) is 
also being tested in the Arabian Gulf onboard USS Ponce and we are 
investing in development and testing of near-term modifications to 
existing weapons on our larger surface combatants.
    <bullet>  Undersea threat: Navy's dominance of the undersea domain 
provides U.S. forces their most significant asymmetric advantage. Our 
investments continue to improve our capability to deny the undersea to 
adversaries, while exploiting it for our own operations. The Navy 
budget request sustains and plans production of proven Anti-Submarine 
Warfare (ASW) platforms including MH-60R Seahawk helicopters, P-8A 
Poseidon maritime patrol aircraft, DDG-51 and Virginia Class nuclear 
submarines. The request also funds capabilities such as advanced 
airborne sensors for the P-8A Poseidon, accelerates torpedo defense 
systems for CVN, improves Navy's Undersea Surveillance system, 
continues development of the Large Displacement Unmanned Underwater 
Vehicles and additional payloads for existing submarines. We also 
continue to practice and refine warfighting in war games and real-world 
exercises including VALIANT SHIELD and Rim of the Pacific (RIMPAC) 
which practices high-end ballistic missile defense, surface warfare and 
anti-submarine warfare in simulations and live-fire missile and torpedo 
events.
    <bullet>  Air threat: Air power is a key component of the Naval 
force, and improving the capability of our CSGs to project power 
despite threats to access closes a key gap. The Navy Budget request 
funds the continued development and low rate production of the new F-
35C Lighting II and capability improvements such as infra-red sensors 
and weapons that provide air-to-air capability that are not susceptible 
to RF jamming. The request also funds improvements to further network 
sensors and weapons in the Navy Integrated Fire Control Counter Air 
(NIFC-CA) capability that uses a network between AEGIS ships and the E-
2D aircraft to seamlessly share threat information. Lastly, the budget 
funds the development and testing of the Unmanned Combat Air System 
Demonstrator (UCAS-D).
    <bullet>  Electromagnetic Spectrum and Cyber: Future conflicts will 
be fought and won in the electromagnetic spectrum and cyberspace, which 
are converging to become one continuous environment. This environment 
is becoming increasingly important to defeating threats to access, 
since through it we can disrupt adversary sensors, command and control 
and weapons homing. The Navy budget request funds two additional 
squadrons of EA-18G Growler electronic warfare aircraft, the Next 
Generation Jammer, seven SLQ-32 Electronic Warfare Improvement Program 
(SEWIP) block I upgrades, accelerates Research and development on SEWIP 
Block 3, fields new deployable decoys to defeat anti-ship missiles and 
continues procurement of improvements to Navy's Ships Signal 
Exploitation Equipment (SSEE) to provide protection from electronic 
attack.
    Mr. Forbes. How are service-specific capability gaps/shortfalls, 
requirements and programmatic assessments authored by the Air-Sea 
Battle Office vetted and coordinated within each service and 
subsequently with outside organizations such as OSD(CAPE), USD(AT&L), 
the Joint Staff, and the Joint Requirements Oversight Council?
    Admiral Foggo. The Air-Sea Battle (ASB) Office does not solely 
identify capability gaps. Each Service assesses its specific capability 
gaps/shortfalls. These gaps are reviewed by the ASB Office for 
applicability in countering anti-access/area denial (A2/AD) challenges. 
Additionally, Service-provided solutions are consolidated in order to 
provide a more holistic view of the collective Service efforts 
addressing the A2/AD threat. This broad view of ongoing efforts allows 
the ASB Office to identify opportunities for multi-Service 
collaboration and make recommendations to their respective Services.
    Since the ASB Office is a multi-Service organization, 
recommendations originate within Service processes.
    Mr. Forbes. What role(s) will the Air-Sea Battle Office perform for 
the services during development of the next Quadrennial Defense Review 
(QDR)?
    Admiral Foggo. The Air-Sea Battle (ASB) Office is not assigned a 
specific QDR role. However, the QDR working groups are focused on 
topics of ASB relevance and ASB-informed Service representatives 
participate in QDR deliberations.
    Mr. Forbes. Is the Air-Sea Battle strategy a new concept? If not, 
why has the concept been formalized with an official office?
    General Stough. Neither the Joint Operational Access Concept (JOAC) 
nor its supporting concepts are strategies, nor do they replace the 
need for coherent strategies. Concepts by their very nature are 
designed to bridge strategy to required capabilities. The Chairman's 
Joint Operational Access Implementation Plan and the Services decision 
to stand up the ASB Office are efforts to better focus and integrate 
force development activities to provide the capabilities required by 
Combatant Commanders to operate in the emerging A2/AD environment.
    The writing of the JOAC was informed by current strategies--the 
2010 National Security Strategy, the 2010 Quadrennial Defense Review 
Report, the 2011 National Military Strategy, and amplifying strategic 
documentation as provided by the 2012 Defense Strategic Guidance. The 
JOAC was also informed by the congressional testimonies and expressed 
needs of the Combatant Commands, and a detailed examination of the 
emerging operating environment.
    The JOAC describes the Chairman's vision for how joint forces will 
operate in response to emerging A2/AD challenges as part of our broader 
national approach. The growth of A2/AD capabilities around the globe, 
the changing U.S. overseas defense posture, and the emergence of space 
and cyberspace as contested domains--is likely to lead future enemies, 
both states and non-states, to adopt A2/AD strategies against the 
United States as a favorable course of action.
    JOAC describes how future joint forces will achieve operational 
access in the face of such strategies. Its central thesis is Cross-
Domain Synergy--which requires a greater degree of integration across 
domains and at lower echelons and a greater degree and more flexible 
integration of space and cyberspace operations into the traditional 
air-sea-land battlespace than ever before.
    To achieve this integration in joint force development, the 
Chairman has directed the development and execution of the Joint 
Operational Access Implementation Plan to better focus and integrate 
development efforts to overcome A2/AD strategies and capabilities. 
Likewise, the Services agreed to establish the ASBO to focus and 
integrate Service Title 10 responsibilities for force development of 
capabilities to overcome A2/AD threats.
    Mr. Forbes. Before the Air-Sea Battle Office was established in 
2012, how did the services determine capability gaps, shortfalls, 
requirements and programmatic budget priorities for training, equipping 
and operating in anti-access/area denial environments?
    General Stough. Generally, capability gaps are identified through a 
capability based assessment (CBA). A CBA uses scenarios to set the 
operational conditions, such as A2/AD, in which military objectives 
must be achieved. The gap between current capability and what we need 
to do to meet our objectives is the ``capability gap.'' Using the 
current force structure and doctrinal approaches gaps can be 
characterized as to whether they are due to proficiency, sufficiency, 
lack of existing capability, needed recapitalization, or policy 
limitations. The risks associated with the identified gaps inform the 
programmatic and budget priorities of the Services.
    Mr. Forbes. How are Air-Sea Battle Office recommended capabilities 
tracked by the services and the Joint Staff during year of budget 
execution to meet identified capability gaps and shortfalls of the 
combatant commanders?
    General Stough. The Joint Staff tracks and validates required 
capabilities through the Joint Capabilities Integration and Development 
System (JCIDS). In addition to the traditional sponsor centric 
requirements process, the Joint Staff tracks Combatant Commander's 
needs through the Integrated Priority List (IPL) process and their time 
critical urgent and emergent needs through the Joint Urgent Operational 
Need (JUON) and Joint Emergent Operational Need (JEON) processes.
    Mr. Forbes. How are service-specific capability gaps/shortfalls, 
requirements and programmatic assessments authored by the Air-Sea 
Battle Office vetted and coordinated within each service and 
subsequently with outside organizations such as OSD(CAPE), USD(AT&L), 
the Joint Staff, and the Joint Requirements Oversight Council?
    General Stough. The ASB Office analyzes needed future military 
capabilities based upon current and programmed force structure and 
capabilities and compares this as-is state to the desired end-state of 
executing the ASB Concept. The resultant gaps in capability are 
documented and pushed from the ASB Office to the services for their 
endorsement and development of formal capability requirements 
documentation.
    These capability requirements documents are submitted into Joint 
Capabilities Integration and Development System (JCIDS) through the 
Knowledge Management/Decision Support (KM/DS) system from the service 
sponsors--this would include any ASB Office vetted recommendations. The 
KM/DS system provides a method for staffing requirements documents to 
ensure input from DOD components with equity, and provides an 
authoritative database for DOD requirements documents.
    Mr. Forbes. Are there any duplicative roles or functions within the 
Joint Staff directorates that are inherently resident within the Air-
Sea Battle Office?
    General Stough. We believe that the roles and functions are 
complementary, vice duplicative, in that there are requirements for 
joint force development, as well as Service and multi-Service 
development consistent with Title 10 authorities. On behalf of the 
Chairman, the Joint Staff directorates focus on joint force development 
while the ASB Office provides a pre-coordinated and integrated view of 
the required capabilities of each Service to assure operational access 
through a multi-domain and multi-service lens. In practice, the Joint 
Staff leverages the work done by the ASB Office to inform overall joint 
force development. In an era of pressing A2/AD challenges and declining 
resources, additional focus on the thorough integration of capabilities 
at the onset of development efforts increases the effectiveness of our 
efforts to meet Combatant Command operational requirements for cross 
domain solutions during execution.
    Mr. Forbes. Will services be able to more effectively meet 
requirements and operational planning considerations of the combatant 
commanders with implementation of the Air-Sea Battle concept? If so, in 
what specific ways?
    General Stough. The JOAC and its supporting concepts, Air Sea 
Battle and the Joint Concept for Entry Operations, were predicated on 
the current and emerging needs of the Combatant Commanders to overcome 
access challenges. The CJCS's JOA Implementation Plan (JIP) is designed 
to ensure joint force development is appropriately focused on the 
Combatant Commanders requirements to overcome A2/AD challenges. It does 
this by developing a comprehensive, department-wide understanding of 
ongoing JOA implementation activities, identifying opportunities for 
joint collaboration to solve potential shortfalls in development 
efforts and/or reducing redundant or duplicative activities, 
establishing a set of prioritized and approved recommendations for 
implementation by Doctrine, Organization, Training, Materiel, 
Leadership and education, Personnel, Facilities, and Policy (DOTMLPF-P) 
processes owners, and by providing comprehensive assessments to 
military decision makers on progress toward the development of required 
capabilities.
    JOA Implementation, which will leverage the complementary efforts 
of the ASB Office, will result in an improved ability to operate across 
multiple domains giving the Combatant Commanders the ability to defeat 
A2/AD strategies and capabilities with less risk.
    Mr. Forbes. How does the Air-Sea Battle Office products and 
analysis contribute to CJCS functions and responsibilities contained 
under 10 U.S.C. Section 153?
    General Stough. Under Title 10 U.S.C. Section 153, the Chairman is 
responsible for ``Planning; Advice; Policy Formation.'' To assist in 
fulfilling that responsibility the Chairman releases Joint Concepts 
that articulate his vision for how the force will operate to overcome 
specific challenges. In Jan 2012 the Chairman released the Joint 
Operational Access Concept (JOAC) to address emerging A2/AD challenges, 
the implementation of which will result in changes to Joint Doctrine, 
Organization, Training, Materiel, Leadership and education, Personnel, 
Facilities, and Policy (DOTMLPF-P).
    Efforts to implement the JOAC, or ASB Concept for that matter, 
don't supplant established authorities or processes but are a means to 
increase focus and integrate efforts to address a critical set of 
challenges. In support of JOA implementation, the ASB Office serves an 
important function in integrating the development of Service-specific 
capabilities that the Joint Force Commander will require. The current 
ASB implementation plan will be leveraged to the maximum extent 
possible to inform relevant segments of our JOA Implementation Plan.
    Mr. Forbes. Since the CJCS JOAC contains 30 precepts, and the Air-
Sea Battle Office is responsible and contributes to enabling 26 of 
those precepts, why is the Air-Sea Battle Office a separate 
organization outside of the Joint Staff with no authority over JOAC 
implementation?
    General Stough. While JOA Implementation focuses efforts that are 
overseen by the Chairman commensurate with his Title 10 
responsibilities and authorities--required changes to Joint Doctrine, 
Organization, Training, Materiel, Leadership and education, Personnel, 
Facilities, and Policy (DOTMLPF-P), the ASB Office focuses on 
integration of Service capabilities in accordance Service Title 10 
responsibilities. These efforts are mutually supportive of and will be 
integrated with, JOA implementation in order to ensure the Combatant 
Commanders have the requisite capabilities to overcome A2/AD 
challenges.
    The JS J7, through a JOA Integration Working Group comprised of 
members from the Joint Staff, Services and Combatant Commands, will 
lead this multi-year, iterative effort with oversight provided by the 
Director of the Joint Staff and the Service Operations Deputies. On-
going efforts by the ASB Office will be incorporated into this effort, 
and the implementation responsibilities for each element of the overall 
JOA Implementation Plan will be aligned consistent with appropriate 
Title 10 authorities for the CJCS, Services, and CCMDs.
    Mr. Forbes. Is the Air-Sea Battle strategy a new concept? If not, 
why has the concept been formalized with an official office?
    General Jones. The Air-Sea Battle Concept was completed in 2011, 
making it a relatively new concept within DOD. In the fall of 2011, 
following initial concept development by the Departments of the Navy 
and Air Force, and recognizing the value of further development and 
implementation of the concept, the Vice Chiefs of all four Services 
signed a memorandum of understanding to officially create the ASB 
Office (ASBO) and further build on the framework to implement the ASB 
Concept. While at first this effort was outside the Joint Staff and 
focused on primarily air and naval capabilities--it has since become 
integrated into a larger force development effort focused on 
capabilities in all domains including those needed to gain and maintain 
access ashore.
    It's important to note that Air-Sea Battle (ASB) is not a military 
strategy; it isn't about countering an invasion; it isn't a plan for 
U.S. forces to conduct an assault. It is an evolutionary set of ideas 
focused on defeating threats to access in order to enable follow-on 
operations--operations which could include military activities as well 
as humanitarian assistance and disaster response. ASB is a concept that 
enables the Joint Force to continue to operate in an anti-access, area 
denial environment as directed in accordance with the 2012 Defense 
Strategic Guidance Joint Force mission to Project Power Despite Anti-
Access/Area Denial (A2/AD) Challenges.
    As a supporting operational concept to the Chairman's Joint 
Operational Access Concept, ASB focuses on shaping any potential 
adversary's anti-access and area denial environment to achieve access 
and freedom of action in order to enable concurrent or follow-on joint 
force power projection operations to achieve decisive results. By 
identifying the actions needed to counter threats to the global 
commons, the materiel and non-materiel investments required to execute 
those actions, and the institutional changes needed to sustain them, 
the ASB Concept serves to spur the development of better integrated 
air, land, and naval forces required to address evolving threats to 
access to ensure freedom of action in the air, space, cyberspace, and 
maritime domains.
    Mr. Forbes. Is the Air-Sea Battle Office sufficiently resourced 
with funding, office space and personnel at a level to be effective and 
efficient?
    General Jones. The Air-Sea Battle (ASB) Office, as currently 
staffed and resourced, provides a fiscally efficient construct to 
enable further development and implementation of the ASB Concept 
through existing Service channels and processes. The office is manned, 
funded, and located within existing Service budgets, personnel, and 
spaces.
    Mr. Forbes. What is the annual budget of the Air-Sea Battle Office 
and how does it compare to other offices with the same responsibilities 
within the Joint Staff, OSD Office of Net Assessment, CAPE, and the 
JROC?
    General Jones. The Air-Sea Battle (ASB) Office does not have a 
specific/unique budget line. The ASB Office stood up from within the 
Services by redistributing existing billets and office space from each 
Service. Funding for office activities comes from the funding line of 
the offices contributing personnel from each of the Services. For 
example, individual travel funds come from the Service staff 
directorate of the participating individual.
    Mr. Forbes. Is the Air-Sea Battle Office workload sufficient and 
proportional enough to the budget, personnel, administrative operating 
resources and support staff provided by each of the services? How was 
the Air-Sea Battle Office staffing and budget determined?
    General Jones. Yes. Between concept implementation, programmatic 
efforts, wargaming, experimentation, and communications, the Air-Sea 
Battle (ASB) Office workload is sufficient and proportional for the 
assigned personnel and support staff.
    Under the ASB Concept Implementation Memorandum of Understanding, 
the Services established a governance structure consisting of a flag-
level ASB Executive Committee (EXCOM) that convenes on a quarterly 
basis; a Senior Steering Group (SSG) that convenes on a monthly basis; 
and supporting ASB Office staff charged with implementing the Concept. 
The supporting staff is composed of personnel from each of the four 
Services--sourced from existing military positions (i.e., ``taken out 
of hide'')--with the mission to foster the development and adoption of 
the related DOTMLPF solutions based upon Air-Sea Battle's conceptual 
design.
    Current ASB Office manning:


----------------------------------------------------------------------------------------------------------------
            Navy                      Air Force                     Marines                      Army
----------------------------------------------------------------------------------------------------------------
4 Military                   2 Military                   1 Military                  1 Military
----------------------------------------------------------------------------------------------------------------
4 Contractors                1 Contractor                 1 Contractor                1 GS
                             1 GS
----------------------------------------------------------------------------------------------------------------

    <greek-l>Navy Air Force Marines Army 4 Military 2 Military 1 
Military 1 Military 4 Contractors 1 Contractor 1 GS 1 Contractor 1 
GS deg.
    The ASB Office does not have a specific/unique budget line.
    Mr. Forbes. Before the Air-Sea Battle Office was established in 
2012, how did the services determine capability gaps, shortfalls, 
requirements and programmatic budget priorities for training, equipping 
and operating in anti-access/area denial environments?
    General Jones. Each Service has long-standing processes used to 
identify their specific capability requirements in order to inform 
resource prioritization decisions. None of the Air-Sea Battle Office 
analysis of force development activities conducted within each of the 
Services is intended to alter these existing processes. The operational 
environment, to include current and anticipated threats, remains an 
important consideration for Service resource decisions.
    Mr. Forbes. Do the services assess the roles and functions of the 
Air-Sea Battle Office as redundant or additive when compared to 
existing functions within current organizational constructs and 
authorities of each respective service's A8, N8/N9, or DCMC(P&R) 
equivalent?
    General Jones. While still in the fledgling stages of development, 
the Air-Sea Battle (ASB) Office provides a complementary perspective to 
the analyses conducted by the Services. The ASB Office provides a 
focused view on a relatively narrow problem through a multi-domain and 
multi-Service lens. This additional perspective enhances planning, 
communicates individual service viewpoints, encourages increased 
service collaboration, and acts as a touchstone for Service resource 
sponsors and programmers to use in their established deliberations.
    Mr. Forbes. How are the roles, functions and policies of the Air-
Sea Battle Office integrated into each service's Planning, Programming, 
Budgeting and Execution (PPBE) process and what authorities is the Air-
Sea Battle Office permitted to exercise in the development of a 
service's budget program?
    General Jones. The Air-Sea Battle (ASB) Memorandum of Understanding 
explains the organizational structure, as well as the responsibilities 
and authorities of the ASB Office. To summarize: the ASB Office 
forwards recommendations from its subject matter expert working groups 
to the Executive Committee, who then sends approved recommendations to 
the Vice Chiefs of Service for further consideration. The ASB 
recommendations are considered in the same process as other Service 
DOTMLPF recommendations. The ASB Office has no unique authorities in 
the development of the Services' budget.
    Mr. Forbes. How do the services assess the effectiveness of the 
Air-Sea Battle Office in supporting the annual Planning, Programming, 
Budgeting and Execution (PPBE) process?
    General Jones. The Services view the ASB Office as a valuable 
complementary perspective that can enhance individual service 
viewpoints and encourage increased programmatic collaboration.
    Mr. Forbes. How do service 3-star programmers integrate Air-Sea 
Battle products into the annual budget process and what percentage of 
Air-Sea Battle recommendations have been incorporated into the 
service's budget to date?
    General Jones. The Air-Sea Battle (ASB) working groups review 
service programs at all stages of development, from RDT&E to Full 
Operational Capability. ASB Office recommendations are one of many 
inputs given to programmers, and historically a high percentage of 
recommendations from the ASB Office are acted upon favorably. No 
specific percentage can be attributed because recommendations are 
typically capabilities-based and not discrete resource allocation 
recommendations.
    Mr. Forbes. How are Air-Sea Battle Office recommended capabilities 
tracked by the services and the Joint Staff during year of budget 
execution to meet identified capability gaps and shortfalls of the 
combatant commanders?
    General Jones. The Services track budget execution of all resource 
allocations; they do not uniquely track Air-Sea Battle (ASB) 
recommendations outside the ASB Office.
    Mr. Forbes. In the view of the service programmers, how did the 
Air-Sea Battle Office specifically influence the outcome of the Fiscal 
Year 2014 President's Budget submission and the FY15-FY18 future years 
defense program? Provide under classified cover if necessary.
    General Jones. The Air-Sea Battle (ASB) Office has no authorities 
in the development of the Services' budget. The ASB Office provides a 
complementary perspective to the analyses conducted by the Services. 
This additional perspective informs and enhances planning, communicates 
individual service viewpoints, encourages increased Service 
collaboration, and acts as a touchstone for Service resource sponsors 
and programmers to use in their established deliberations. ASB 
recommendations have been well aligned with Service emphasis areas and 
have had particular impact shaping training, exercises, and wargames 
where the ASB Concept are tested and evaluated for incorporation into 
operational and strategic planning.
    Mr. Forbes. How are service-specific capability gaps/shortfalls, 
requirements and programmatic assessments authored by the Air-Sea 
Battle Office vetted and coordinated within each service and 
subsequently with outside organizations such as OSD(CAPE), USD(AT&L), 
the Joint Staff, and the Joint Requirements Oversight Council?
    General Jones. The Air-Sea Battle (ASB) Office does not author 
capability gaps. Each Service assesses its specific capability gaps/
shortfalls. These gaps are reviewed by the ASB Office for applicability 
in countering anti-access/area denial (A2/AD) challenges. Additionally, 
Service-provided solutions are consolidated in order to provide a more 
holistic view of the collective Service efforts addressing the A2/AD 
threat. This broad view of ongoing efforts allows the ASB Office to 
identify opportunities for multi-Service collaboration and make 
recommendations to their respective Services.
    Since the ASB Office is a multi-Service organization, 
recommendations originate within Service processes.
    As it relates to outside organizations, each year Services submit 
to OSD their Fiscal Year Defense Program (FYDP) programmatic 
requirements, including ASB recommendations. Subsequent to these 
submissions, during Program Budget Review (PBR), the Joint Staff and 
all OSD Principal Staff Assistants (PSA), including USD(AT&L), submit 
issue papers against the Services' program recommendations to 
OSD(CAPE). Issues approved by the Deputy Secretary of Defense (DSD) are 
assigned to Issue Teams for vetting. Joint Staff, USD(AT&L), and 
OSD(CAPE) have opportunity to participate on any Issue Team vetting 
ASB-related issues. Issue Teams either resolve issues internally or 
propose alternatives in turn to OSD(CAPE) and DSD for resolution. Final 
FYDP programmatic decisions are documented in a Resource Management 
Decision signed by DSD.
    The Joint Staff also conducts an annual Capability Gap Analysis 
(CGA) that is directly linked to the CCDR Integrated Priority List 
(IPL) submission--as well as their Comprehensive Joint Assessment (CJA) 
data. The final outputs from the CJA are used to develop the Chairman's 
Program Review (CPR) and Assessment (CPA), both reported to Congress. 
The output from the CGA has historically been used to identify those 
specific Service gaps that have been determined by the Joint Staff to 
be of significant risk, and to recommend specific Service action to 
close/reduce those risks. In the past, these recommendations have also 
included ones programmatic in nature. A2/AD capability gaps are 
adjudicated using the same Departmental processes that address other 
capability gaps. The CCDRs have incorporated those specific gaps/
recommendations into their IPL submissions, to be adjudicated in a 
larger `National' context by the Joint Staff. The CGA is approved by 
the Joint Requirements Oversight Council (JROC) and documented in a 
JROC Memorandum (JROCM) that captures the relevant Joint decisions to 
inform many Service efforts (e.g., POM development, Science &Technology 
investment, Manpower, Policy, etc.).
    Mr. Forbes. What role(s) will the Air-Sea Battle Office perform for 
the services during development of the next Quadrennial Defense Review 
(QDR)?
    General Jones. The Air Sea Battle Office will continue to encourage 
strategic thought and innovative doctrine on the integrated application 
of current and emerging counter A2/AD capabilities. They will continue 
to investigate capability gaps, shortfalls and requirements to face 
complex security threats in Anti-Access/Area Denial environments. The 
Air-Sea Battle Office will continue to engage with all the Services, 
Joint Staff and OSD Policy to ensure that new concepts of operations 
and emerging doctrine inform the QDR 2018 strategic conversation.
    Mr. Forbes. Is the Air-Sea Battle strategy a new concept? If not, 
why has the concept been formalized with an official office?
    General Killea. First, it's important to note that Air-Sea Battle 
(ASB) is not a military strategy; it isn't about countering an 
invasion; it isn't a plan for U.S. forces to conduct an assault. It is 
an evolutionary set of ideas intended to inform the development of 
military capabilities for defeating threats to access in order to 
enable follow-on operations--operations which could include military 
activities as well as humanitarian assistance and disaster response. 
ASB is a concept intended to help enable the Joint Force to continue to 
operate in an anti-access area denial environment as directed in 
accordance with one of the 2012 Defense Strategic Guidance Joint Force 
missions to Project Power Despite Anti-Access/Area Denial (A2/AD) 
Challenges.
    As a limited objective supporting operational concept to the 
Chairman's Joint Operational Access Concept, ASB focuses on developing 
forces capable of shaping any potential adversary's anti-access and 
area denial environment in order to achieve access and freedom of 
action; and to enable concurrent or follow-on joint force power 
projection operations to achieve decisive results. By identifying the 
actions needed to counter threats to the global commons, the materiel 
and non-materiel investments required to execute those actions, and the 
institutional changes needed to sustain them, the ASB Concept serves to 
spur the development of better integrated air, land, and naval forces 
required to address evolving threats to access to ensure freedom of 
action in the air, space, cyberspace, and maritime domains.
    In 2010 the Secretary of Defense directed the Departments of the 
Navy and Air Force to develop the ASB Concept and to work together to 
foster its implementation through focused wargaming, experimentation, 
and exercises. To that end the Navy, Air Force, and Marine Corps 
established a project office to provide a standing multi-service forum 
for both the exchange of ideas and the cross-coordination of service 
initiatives related to developing capabilities to overcome anti-access 
and area denial threats. Since then the effort has grown to include 
representation from the Army as well as the Joint Staff J-7 who are 
developing a framework for implementing the Joint Operational Access 
Concept. This broader joint effort will include ASB's input and develop 
the full range of capabilities needed for U.S. forces to gain and 
maintain access in all domains in order to project power across the 
range of military operations.
    Mr. Forbes. Is the Air-Sea Battle Office sufficiently resourced 
with funding, office space and personnel at a level to be effective and 
efficient?
    General Killea. The Air-Sea Battle (ASB) Office, as currently 
staffed and resourced, provides a fiscally efficient construct to 
enable further development and implementation of the ASB Concept 
through existing Service channels and processes. The office is manned, 
funded, and located within existing Service budgets, personnel, and 
spaces. Given increased resourcing in any of these areas, the office 
could increase its multi-Service and multi-national implementation 
efforts through such activities as increased wargaming, 
experimentation, exercises, and training.
    Mr. Forbes. What is the annual budget of the Air-Sea Battle Office 
and how does it compare to other offices with the same responsibilities 
within the Joint Staff, OSD Office of Net Assessment, CAPE, and the 
JROC?
    General Killea. The Air-Sea Battle (ASB) Office does not have a 
specific/unique budget line. The ASB Office was established from within 
the Services by redistributing existing billets and office space from 
each Service. Funding for office activities comes from the funding line 
of the offices contributing personnel from each of the Services. For 
example, individual travel funds come from the Service staff 
directorate of the participating individual.
    Mr. Forbes. Is the Air-Sea Battle Office workload sufficient and 
proportional enough to the budget, personnel, administrative operating 
resources and support staff provided by each of the services? How was 
the Air-Sea Battle Office staffing and budget determined?
    General Killea. Yes. Between concept implementation, programmatic 
efforts, wargaming, experimentation, and communications, the Air-Sea 
Battle (ASB) Office has more than a sufficient workload for the 
assigned personnel and support staff.
    Under the ASB Concept Implementation Memorandum of Understanding, 
the Services established a governance structure consisting of a flag-
level ASB Executive Committee that convenes on a quarterly basis; a 
Senior Steering Group that convenes on a monthly basis; and supporting 
ASB Office staff charged with implementing the Concept. The supporting 
staff is composed of personnel from each of the four Services--sourced 
from existing military positions (i.e., ``taken out of hide'')--with 
the mission to foster the development and adoption of the related 
DOTMLPF solutions that support the Air-Sea Battle Concept's objectives. 
Additionally, the governance structure includes a number of working 
groups, comprised of subject matter experts from the Services, which 
meet periodically. These working groups ensure that the ASB office 
maintains close linkages with the operating forces and other key 
supporting organizations within the Services.
    Current ASB Office manning:


----------------------------------------------------------------------------------------------------------------
            Navy                      Air Force                     Marines                      Army
----------------------------------------------------------------------------------------------------------------
4 Military                   2 Military                   1 Military                  1 Military
----------------------------------------------------------------------------------------------------------------
4 Contractors                1 Contractor                 1 Contractor                1 GS
                             1 GS
----------------------------------------------------------------------------------------------------------------

    <greek-l>Navy Air Force Marines Army 4 Military 2 Military 1 
Military 1 Military 4 Contractors 1 Contractor 1 Contractor 1 GS 1 
GS deg.
    The ASB Office does not have a specific/unique budget line.
    Mr. Forbes. Before the Air-Sea Battle Office was established in 
2012, how did the services determine capability gaps, shortfalls, 
requirements and programmatic budget priorities for training, equipping 
and operating in anti-access/area denial environments?
    General Killea. Each Service has long-standing processes used to 
identify their specific capability requirements in order to inform 
resource prioritization decisions. None of the Air-Sea Battle Office 
analysis of force development activities conducted within each of the 
Services is intended to alter these existing processes. The operational 
environment, to include current and anticipated threats, remains an 
important consideration for Service resource decisions.
    Mr. Forbes. Do the services assess the roles and functions of the 
Air-Sea Battle Office as redundant or additive when compared to 
existing functions within current organizational constructs and 
authorities of each respective service's A8, N8/N9, or DCMC(P&R) 
equivalent?
    General Killea. While still in the fledgling stages of development, 
the Air-Sea Battle (ASB) Office provides a complementary perspective to 
the analyses conducted by the Services and Joint Staff. The ASB Office 
provides a focused view on a relatively narrow problem (i.e. access to 
the global commons) through a multi-domain and multi-Service lens. This 
additional perspective enhances planning, communicates individual 
service viewpoints, encourages increased Service collaboration, and 
acts as a touchstone for Service resource sponsors and programmers to 
use in their established deliberations.
    Mr. Forbes. How are the roles, functions and policies of the Air-
Sea Battle Office integrated into each service's Planning, Programming, 
Budgeting and Execution (PPBE) process and what authorities is the Air-
Sea Battle Office permitted to exercise in the development of a 
service's budget program?
    General Killea. The Air-Sea Battle (ASB) Memorandum of 
Understanding prescribes the organizational structure, as well as the 
responsibilities and authorities of the ASB Office. To summarize: the 
ASB Office forwards recommendations from its subject matter expert 
working groups to the Executive Committee, who then sends approved 
recommendations to the Vice Chiefs of Service for further 
consideration. The ASB Office recommendations are considered in the 
same process as other Service DOTMLPF recommendations. The ASB Office 
has no unique authorities in the development of the Service budget.
    Mr. Forbes. How do the services assess the effectiveness of the 
Air-Sea Battle Office in supporting the annual Planning, Programming, 
Budgeting and Execution (PPBE) process?
    General Killea. The Services view the Air-Sea Battle Office as 
providing a valuable forum and complementary perspective that enhances 
individual Service viewpoints, informs related force development 
activities, and encourages increased programmatic collaboration.
    Mr. Forbes. How do service 3-star programmers integrate Air-Sea 
Battle products into the annual budget process and what percentage of 
Air-Sea Battle recommendations have been incorporated into the 
service's budget to date?
    General Killea. The Air-Sea Battle (ASB) working groups review 
service programs at all stages of development, from RDT&E to Full 
Operational Capability. The recommendations they make--especially for 
mature programs--generally coincide with those of the programmers. As a 
result, a high percentage of recommendations from the ASB Office are 
acted upon favorably. Please note however that no specific percentage 
can be attributed because recommendations are typically capabilities-
based and not discrete resource allocation recommendations.
    Mr. Forbes. How are Air-Sea Battle Office recommended capabilities 
tracked by the services and the Joint Staff during year of budget 
execution to meet identified capability gaps and shortfalls of the 
combatant commanders?
    General Killea. The Services track budget execution of all resource 
allocations; they do not uniquely track Air-Sea Battle (ASB) 
recommendations outside the ASB Office.
    Mr. Forbes. In the view of the service programmers, how did the 
Air-Sea Battle Office specifically influence the outcome of the Fiscal 
Year 2014 President's Budget submission and the FY15-FY18 future years 
defense program? Provide under classified cover if necessary.
    General Killea. The ASB Office does not, nor should it exert any 
authority over Service resource or budget decisions. The ASB 
implementation plan prescribes a programmatic collaboration process by 
which the ASB Office reviews Service capability gaps and their 
associated solutions for applicability in countering A2/AD threats. The 
POM 14 ASB deliberations presented the first opportunity for all four 
Services to participate in the nascent process. This review provided a 
focused look at how the Services are addressing a very narrow slice of 
the spectrum of military operations and threats that could be faced by 
the Joint Force.
    Though not a direct result of ASB recommendations, the Marine Corps 
continues to invest in capabilities that enhance the effectiveness and 
interoperability of the Joint Force in an A2/AD environment. Specific 
investments in systems such as the F-35B and ISR systems are integral 
to countering A2/AD threats. Additionally, the Marine Corps is making 
significant investment in improving and defending our expeditionary 
command and control networks. We remain committed to developing and 
strengthening relationships with our allies and partners world-wide, 
and we continue to refine our employment and sustainment concepts in 
the context of A2/AD challenges.
    The Marine Corps provides general purpose forces organized, 
trained, and equipped to conduct military operations in myriad 
scenarios against a wide array of adversaries and capabilities. The 
analysis and recommendations provided by the ASB Office is one of many 
viewpoints considered by the Marine Corps as part of our POM 
development process. Even though the ASB office has not exerted direct 
influence over the Marine Corps POM submission, many of our investment 
decisions reflect a shared recognition of the challenges posed to the 
Joint Force by adversaries equipped with sophisticated A2/AD 
capabilities.
    Mr. Forbes. How are service-specific capability gaps/shortfalls, 
requirements and programmatic assessments authored by the Air-Sea 
Battle Office vetted and coordinated within each service and 
subsequently with outside organizations such as OSD(CAPE), USD(AT&L), 
the Joint Staff, and the Joint Requirements Oversight Council?
    General Killea. The Air-Sea Battle (ASB) Office does not author 
capability gaps. Each Service assesses its specific capability gaps/
shortfalls. These gaps are reviewed by the ASB Office for applicability 
in countering anti-access/area denial (A2/AD) challenges primarily in 
the global commons of air, sea, space, and cyber. Additionally, 
Service-provided solutions are consolidated in order to provide a more 
holistic view of the collective Service efforts addressing the A2/AD 
threat. This broad view of ongoing efforts allows the ASB Office to 
identify opportunities for multi-Service collaboration and make 
recommendations to their respective Services.
    Mr. Forbes. What role(s) will the Air-Sea Battle Office perform for 
the services during development of the next Quadrennial Defense Review 
(QDR)?
    General Killea. The Air-Sea Battle (ASB) Office is not assigned a 
specific QDR role, however the QDR working groups are focused on topics 
of ASB relevance and ASB-informed Service representatives participate 
in QDR deliberations.
    Mr. Forbes. Is the Air-Sea Battle strategy a new concept? If not, 
why has the concept been formalized with an official office?
    General Cheek. Air-Sea Battle (ASB) is a set of ideas focused on 
defeating threats to access in order to enable follow-on operations--
operations which could include military activities as well as 
humanitarian assistance and disaster response. ASB is a concept that 
enables the Joint Force to continue to operate in an anti-access area 
denial environment as directed in accordance with the 2012 Defense 
Strategic Guidance Joint Force mission to Project Power Despite Anti-
Access/Area Denial (A2/AD) Challenges.
    As a supporting operational concept to the Chairman's Joint 
Operational Access Concept, ASB focuses on shaping any potential 
adversary emplaced anti-access and area denial environment to achieve 
access and freedom of action in order to enable concurrent or follow-on 
joint force power projection operations to achieve decisive results in 
Joint Force campaigns. By identifying the actions needed to counter 
threats to the global commons, the materiel and non-materiel 
investments required to execute those actions, and the institutional 
changes needed to sustain them, the ASB Concept serves to spur the 
development of better integrated air, land, and naval forces required 
to address evolving threats to access to ensure freedom of action in 
the air, space, cyberspace, and maritime domains to enable follow on 
intra-theater or force projection operations.
    In the fall of 2011, following initial concept development by the 
Departments of the Navy and Air Force, and recognizing the value of 
further development and implementation of the concept, the Vice Chiefs 
of all four Services signed a memorandum of understanding to officially 
create the ASB office and further build on the framework to implement 
the ASB Concept. While at first this effort was outside the Joint Staff 
and focused on primarily air and naval capabilities--it has since 
become integrated into a larger force development effort focused on 
capabilities in all domains including those needed to gain and maintain 
access ashore.
    Mr. Forbes. Is the Air-Sea Battle Office sufficiently resourced 
with funding, office space and personnel at a level to be effective and 
efficient?
    General Cheek. The Air-Sea Battle (ASB) office, as currently 
staffed and resourced, provides an efficient construct to appropriately 
enable further development and implementation of the ASB Concept 
through existing Service channels and processes. The office is manned, 
funded, and located within existing Service budgets, personnel, and 
spaces. Given increased resourcing in any of these areas, the office 
could increase its multi-Service and multi-national implementation 
efforts through such things as increased wargaming, experimentation, 
exercises, and training.
    Mr. Forbes. What is the annual budget of the Air-Sea Battle Office 
and how does it compare to other offices with the same responsibilities 
within the Joint Staff, OSD Office of Net Assessment, CAPE, and the 
JROC?
    General Cheek. The Air-Sea Battle (ASB) office does not have a 
unique budget line. The ASB office stood up from within the Services by 
redistributing existing billets and office space from each Service. 
Funding for office activities comes from the funding line of the 
offices contributing personnel from each of the Services. For example, 
individual travel funds come from the Service staff directorate of the 
participating individual.
    Mr. Forbes. Is the Air-Sea Battle Office workload sufficient and 
proportional enough to the budget, personnel, administrative operating 
resources and support staff provided by each of the services? How was 
the Air-Sea Battle Office staffing and budget determined?
    General Cheek. Yes. Between concept implementation, programmatic 
efforts, wargaming, experimentation, and communications, the Air-Sea 
Battle (ASB) office has more than a sufficient workload for the 
assigned personnel and support staff.
    Under the ASB Concept Implementation Memorandum of Understanding, 
the Services established a governance structure consisting of a flag-
level ASB Executive Committee (EXCOM) that convenes on a quarterly 
basis; a Senior Steering Group (SSG) that convenes on a monthly basis; 
and supporting ASB office staff charged with implementing the Concept. 
The supporting staff is composed of personnel from each of the four 
Services--sourced from existing military positions--with the mission to 
foster the development and adoption of the related force development 
solutions based upon Air-Sea Battle's conceptual design. Service 
representatives within the ASB office also leverage support through 
reach-back capabilities to Service staff directorates and Major 
Commands. As an example, the Army utilizes connectivity with Training 
and Doctrine Command's Army Capabilities Integration Center (ARCIC) for 
subject matter expertise support for identified focus areas.
    Current ASB office manning is: Navy--4 military and 4 contractors; 
Air Force--2 military, 1 government civilian, 1 contractor; USMC--1 
military and 1 contractor; Army--1 military and 1 government civilian. 
The ASB office does not have a budget line.
    Mr. Forbes. Before the Air-Sea Battle Office was established in 
2012, how did the services determine capability gaps, shortfalls, 
requirements and programmatic budget priorities for training, equipping 
and operating in anti-access/area denial environments?
    General Cheek. Each Service has long-standing processes used to 
identify their specific capability requirements, as part of the joint 
analytic community, in order to inform resource prioritization 
decisions. These processes continue in use. None of the Air-Sea Battle 
office analyses of force development activities conducted within each 
of the Services is intended to alter these existing processes. The 
operational environment, to include current and anticipated future 
threats, has been, and remains, an important consideration for Service 
resource decisions.
    Mr. Forbes. Do the services assess the roles and functions of the 
Air-Sea Battle Office as redundant or additive when compared to 
existing functions within current organizational constructs and 
authorities of each respective service's A8, N8/N9, or DCMC(P&R) 
equivalent?
    General Cheek. While still in the fledgling stages of development, 
the Air-Sea Battle (ASB) office provides a complementary perspective to 
the analyses conducted by the Services. The ASB office provides a 
focused view on a relatively narrow problem through a multi-domain and 
multi-Service lens. This additional perspective enhances planning, 
communicates individual service viewpoints, encourages increased 
service collaboration, and acts as a touchstone for Service resource 
sponsors and programmers to use in their established deliberations.
    Mr. Forbes. How are the roles, functions and policies of the Air-
Sea Battle Office integrated into each service's Planning, Programming, 
Budgeting and Execution (PPBE) process and what authorities is the Air-
Sea Battle Office permitted to exercise in the development of a 
service's budget program?
    General Cheek. The Air-Sea Battle (ASB) Memorandum of Understanding 
explains the organizational structure, as well as the responsibilities 
and authorities of the ASB office. To summarize: the ASB office 
forwards recommendations from its subject matter expert working groups 
to the Executive Committee, which, if warranted, sends approved 
recommendations to the Vice Chiefs of Service for further 
consideration. The ASB recommendations are considered in the same 
process as other Service force development recommendations. The ASB 
office has no unique authorities in the development of the Services' 
budget.
    Mr. Forbes. How do the services assess the effectiveness of the 
Air-Sea Battle Office in supporting the annual Planning, Programming, 
Budgeting and Execution (PPBE) process?
    General Cheek. The Services view the Air-Sea Battle office as 
providing a complementary perspective that enhances individual Service 
viewpoints and can encourage increased programmatic collaboration.
    Mr. Forbes. How do service 3-star programmers integrate Air-Sea 
Battle products into the annual budget process and what percentage of 
Air-Sea Battle recommendations have been incorporated into the 
service's budget to date?
    General Cheek. The Air-Sea Battle (ASB) working groups review 
relevant service programs at all stages of development, from Research 
Development Testing & Evaluation (RDT&E) to Full Operational 
Capability. ASB office recommendations are one of many inputs given to 
programmers. The recommendations they make--especially for mature 
programs--generally coincide with those of the programmers. As a 
result, a high percentage of recommendations from the ASB office are 
received favorably. No specific percentage can be attributed since ASB 
recommendations are typically capabilities-based and not discrete 
resource allocation recommendations.
    Mr. Forbes. How are Air-Sea Battle Office recommended capabilities 
tracked by the services and the Joint Staff during year of budget 
execution to meet identified capability gaps and shortfalls of the 
combatant commanders?
    General Cheek. The Services track budget execution of all resource 
allocations; they do not uniquely track Air-Sea Battle (ASB) 
recommendations outside the ASB office.
    Mr. Forbes. In the view of the service programmers, how did the 
Air-Sea Battle Office specifically influence the outcome of the Fiscal 
Year 2014 President's Budget submission and the FY15-FY18 future years 
defense program? Provide under classified cover if necessary.
    General Cheek. The recommendations provided by the Air-Sea Battle 
office to Army G3 and G8 provided a complementary supporting view for 
maintenance or increased funding for several areas within the Army 
Program. The most significant of these fell within the areas of 
Integrated Air and Missile Defense, Cyber, and Space.
    Mr. Forbes. How are service-specific capability gaps/shortfalls, 
requirements and programmatic assessments authored by the Air-Sea 
Battle Office vetted and coordinated within each service and 
subsequently with outside organizations such as OSD(CAPE), USD(AT&L), 
the Joint Staff, and the Joint Requirements Oversight Council?
    General Cheek. The Air-Sea Battle (ASB) office does not author 
capability gaps. Each Service assesses its specific capability gaps/
shortfalls. These gaps are reviewed by the ASB office for applicability 
in countering anti-access/area denial (A2/AD) challenges. Additionally, 
Service-provided solutions are consolidated in order to provide a more 
holistic view of the collective Service efforts addressing the A2/AD 
threat. This broad view of ongoing efforts allows the ASB office to 
identify opportunities for multi-Service collaboration and make 
recommendations to their respective Services for inclusion in existing 
processes to include the Joint Requirements Oversight Council. The ASB 
office is a multi-Service organization, thus recommendations originate 
within Service processes.
    Mr. Forbes. What role(s) will the Air-Sea Battle Office perform for 
the services during development of the next Quadrennial Defense Review 
(QDR)?
    General Cheek. The Air-Sea Battle (ASB) office is not assigned a 
specific QDR role, however the QDR working groups that may include 
topics of ASB relevance have ASB-informed Service representatives 
participate in their QDR deliberations.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. As I look at the Air-Sea Battle strategy, I don't see 
a lot that is fundamentally new--in most cases this is activity and 
thought that has been ongoing for some time.
    What changed to merit the creation of the ASB office, and what 
about the current joint structure was inadequate? In other words, what 
is the secret sauce that ASB is providing that no one else can, and why 
wasn't it already being done?
    Admiral Foggo. Anti-access/area denial (A2/AD) capabilities and 
strategies are not new. The objective to deny an adversary both access 
and the ability to maneuver remain timeless precepts of warfare. The 
difference today is that technological advances and proliferation of 
A2/AD capabilities threaten stability by empowering potential 
adversaries with previously unattainable military capabilities. A new 
generation of cruise, ballistic, air-to-air, and surface-to-air 
missiles with improved range, accuracy, and lethality is being produced 
and proliferated. Modern submarines and fighter aircraft are entering 
the militaries of many nations, while sea mines are being equipped with 
mobility, discrimination and autonomy. Space and cyberspace have never 
been more important and will be contested by our adversaries. The 
pervasiveness and advancement of computer technology and reliance on 
the internet and usable networks are creating means and opportunity for 
computer network attack by numerous state and non-state aggressors, and 
the domain of space is now integral to such military capabilities as 
communications, surveillance, and positioning. In certain scenarios, 
even low-tech capabilities, such as rudimentary sea mines, fast-attack 
small craft, or shorter range artillery and missile systems render 
transit into and through the commons vulnerable to interdiction by 
coercive, aggressive actors, slowing or stopping free movement. The 
range and scale of possible effects from these capabilities presents a 
military problem set that threatens the U.S. and allied warfare model 
of power projection and maneuver.
    In response to this changing environment, Secretary of Defense 
Robert M. Gates, directed the Departments of the Navy and the Air Force 
to address this challenge and develop an operational concept as a means 
of refocusing the joint force on these developing threats. The `secret 
sauce' in ASB revolves around the central idea that better networked, 
integrated forces capable of attacking and defending in depth will be 
capable of disrupting, destroying, and defeating rapidly maturing and 
proliferating A2/AD threats, while simultaneously maintaining joint 
assured access. While at first this effort was outside the Joint Staff 
and focused on primarily air and naval capabilities--it has since 
become integrated into a larger force development effort focused on 
capabilities in all domains including those needed to gain and maintain 
access ashore.
    Mr. Langevin. The ASB office exists within a very crowded 
organizational construct--CAPE, AT&L, the Joint Staff, and the JROC, 
among others. How do the services assess the roles and functions of the 
ASB office in relation to the service-specific and joint organizational 
constructs? What happens if the ASB office and the joint staff, the 
combatant commanders, or the services disagree?
    Admiral Foggo. The Services view the Air-Sea Battle (ASB) Office as 
one of several valuable complementary perspectives that inform and 
enhance individual service viewpoints and encourages multi-Service 
cooperation in force development activities such as wargaming, 
experimentation, and exercises.
    Any disagreement would be raised to the appropriate level in the 
respective chain of command, starting with the ASB Senior Steering 
Group (2-star) and the ASB Executive Committee (3-star) as outlined in 
our Memorandum of Understanding.
    It is important to note that the ASB Office meets routinely with 
the Joint Staff and Combatant Command staffs and their components to 
discuss initiatives, receive input, and coordinate future activity. 
This has greatly helped to avoid disagreements and disputes over roles 
and functions.
    Mr. Langevin. What authorities does the office have in the 
planning, programming, budgeting, and execution process, and does this 
include authority with regard to research and development investments?
    Can you provide some concrete examples of how the ASB office has 
affected service budget priorities that otherwise would have been 
substantially different? I bring this up as the ASB concept seems to 
place a heavy premium on certain asymmetric or next-generation 
capabilities--undersea warfare capabilities such as the Virginia-class 
and Virginia Payload Module, advanced EW, full integration of cyber 
fires, next-generation weapons such as directed energy and rail guns, 
and durable space capabilities, among others. I would say that the 
services and the joint staff already recognize the value of these 
capabilities, and they are appropriately budgeting for them, broadly 
speaking, given the current fiscal constraints.
    Admiral Foggo. The Air-Sea Battle (ASB) Office has no authorities 
in the development of the Services' budget. This is an individual 
Service Title 10 responsibility. The ASB Office provides a 
complementary perspective to the analyses conducted by the Services. 
This additional perspective informs and enhances planning, communicates 
individual service viewpoints, encourages increased Service 
collaboration, and acts as a touchstone for Service resource sponsors 
and programmers to use in their established deliberations. ASB 
recommendations have been well aligned with Service emphasis areas and 
have had particular impact shaping training, exercises, and wargames 
where the ASB Concept is tested and evaluated for incorporation into 
operational and strategic planning.
    Mr. Langevin. The Air-Sea Battle (ASB) Office recommended that each 
of the services needs to continue to implement specific actions within 
their organization, train and equip roles. In particular, one such 
action item was that ``Full command and control connectivity and nodal 
linkages between Air and Space Operations Centers (AOCs) and Maritime 
Operation Centers (MOCs) do not currently exist.'' Does the ASB concept 
have concerns about this capability gap that are not already 
encompassed within the future Joint Information Environment construct, 
which includes ``networked operations centers, core data centers, and a 
global identity management system with cloud-based applications and 
services''?
    Admiral Foggo. The only concern that is not already encompassed 
within the future Joint Information Environment construct is integrated 
AOC/MOC training. Joint training and exercises that integrate AOC and 
MOC operations on a habitual basis are needed to form permanent 
relationships between the two communities. This training should seek to 
proliferate best practices as Tactics, Techniques, and Procedures that 
can be used or adapted across Service and Unified Command lines.
    Mr. Langevin. ASB heavily emphasizes cyber capabilities. However, 
the operational thought constructs seem to assume a much higher level 
of delegation of authority for cyber actions than currently exists. I 
am aware that OSD is working through some of the very thorny issues 
regarding the use of cyber capabilities, but to what extent does ASB 
inform that process, if it does at all?
    Admiral Foggo. The ASB Concept identified the need for both 
offensive and defensive cyber capabilities, but each of the Services 
must determine its own required capabilities. Delegation of authority 
policies are scenario specific and must still be developed through the 
collaborative efforts of OSD, Joint Staff, and the Combatant Commander. 
The Air-Sea Battle Office informs that process through lessons learned 
from war games and exercises.
    Mr. Langevin. Training in the complex environments of the future is 
a huge challenge that I know has been an issue for some time--
particularly the ability to integrate cyber and EW. While certainly 
there have been some strides in the generation of those training 
capabilities, I think we would all agree that the status quo is not 
adequate. What does ASB add to the services' current efforts to create 
that ability? What was the current joint planning environment unable to 
provide?
    Admiral Foggo. All modern military operations are heavily reliant 
on the use of cyberspace and the electromagnetic spectrum (EMS). The 
Air Sea Battle (ASB) Concept and each of the Services assume that these 
will be increasingly challenged by sophisticated anti-access/area 
denial (A2/AD)-capable adversaries. The ASB Office maintains awareness 
of ongoing Service actions to mitigate those challenges and improve the 
ability of the Joint Force to operate in the presence of these threats. 
The ASB Office established working groups comprised of subject matter 
experts from across the Services in both Electronic Warfare and 
Cyberspace Operations, among others. During January 2014, the ASB 
Office will convene its annual planning workshop as part of the FY14 
ASB Implementation Master Plan activities. During this workshop, 
participants will review and organize the planned exercise, 
experimentation, training, etc., activities within each of the Services 
in order to determine the collective ``roadmap'' toward improvements in 
capabilities in the presence of A2/AD threats. The Working Group 
participants will draw from their expertise to make recommendations on 
improvements to existing activities, and identify any additional 
activities that will be provided back to the Services through existing 
lines of communication.
    Mr. Langevin. As I look at the Air-Sea Battle strategy, I don't see 
a lot that is fundamentally new--in most cases this is activity and 
thought that has been ongoing for some time.
    What changed to merit the creation of the ASB office, and what 
about the current joint structure was inadequate? In other words, what 
is the secret sauce that ASB is providing that no one else can, and why 
wasn't it already being done?
    General Stough. Events of recent decades demonstrated the decisive 
results U.S. joint forces can achieve when allowed to flow combat power 
into an operational area unimpeded. Yet few if any enemies perceived 
that they possessed the ability to deny U.S. access by armed 
opposition, and U.S. operational access during that period was 
essentially unopposed. What is new is that the ability to ensure 
operational access in the future is being challenged--and may well be 
the most difficult operational challenge U.S. forces will face over the 
coming decades. Increasingly capable future enemies will see the 
adoption of A2/AD strategy against the United States as a favorable 
course of action. The combination of three major trends has altered the 
calculus: (1) The dramatic improvement and proliferation of weapons and 
other technologies capable of denying access to or freedom of action 
within an operational area. (2) The changing U.S. overseas defense 
posture. (3) The emergence of space and cyberspace as increasingly 
important and contested domains.
    With the evolving A2/AD challenges comes the requirement to conduct 
cross domain operations--the central idea of the Joint Operational 
Access Concept--to overcome those challenges. Cross domain operations 
requires an increased level of integration during force development, 
and seeing a need to do so the Air Force, Navy, and Marine Corps (and 
later joined by the Army) leaned forward to develop the ASB Concept and 
to establish the ASB Office. Subsequent approval of the Joint 
Operational Access Concept provided the overarching framework for how 
to develop the Joint force to respond to access challenges, and ASB 
Office efforts now remain complementary and supportive of JOA 
implementation.
    Mr. Langevin. The ASB office exists within a very crowded 
organizational construct--CAPE, AT&L, the Joint Staff, and the JROC, 
among others. How do the services assess the roles and functions of the 
ASB office in relation to the service-specific and joint organizational 
constructs? What happens if the ASB office and the joint staff, the 
combatant commanders, or the services disagree?
    General Stough. As capability requirements are identified and 
brought forward for validation, the Joint Staff conducts an independent 
assessment of the analysis and recommendations of the capability 
sponsor. As the documentation describing capability requirements are 
staffed through Joint Capabilities and Development System (JCIDS) to 
the Joint Requirement Oversight Council (JROC), views from the various 
equity holders are raised and adjudicated appropriately. The final 
arbiter of disagreements with respect to capability requirements is the 
JROC where CAPE and AT&L are statutory advisors, and the applicable 
Combatant Commanders are encouraged to attend and provide input.
    Mr. Langevin. What authorities does the office have in the 
planning, programming, budgeting, and execution process, and does this 
include authority with regard to research and development investments?
    Can you provide some concrete examples of how the ASB office has 
affected service budget priorities that otherwise would have been 
substantially different? I bring this up as the ASB concept seems to 
place a heavy premium on certain asymmetric or next-generation 
capabilities--undersea warfare capabilities such as the Virginia-class 
and Virginia Payload Module, advanced EW, full integration of cyber 
fires, next-generation weapons such as directed energy and rail guns, 
and durable space capabilities, among others. I would say that the 
services and the joint staff already recognize the value of these 
capabilities, and they are appropriately budgeting for them, broadly 
speaking, given the current fiscal constraints.
    General Stough. The responsibility for planning, programming, 
budgeting, and execution process, and the authority for research and 
development investments resides with the Services per Title 10 U.S.C. 
On behalf of the Services, the ASB Office analyzes needed future 
military capabilities based upon current and programmed force structure 
and capabilities and compares this to the desired end-state of the ASB 
Concept. The resultant gaps in capability are documented and provided 
to the Services for their endorsement and development.
    The ASB Office is the appropriate organization to provide concrete 
examples of how the ASB Office efforts have affected service budget 
priorities that otherwise would have been substantially different.
    Mr. Langevin. The Air-Sea Battle (ASB) Office recommended that each 
of the services needs to continue to implement specific actions within 
their organization, train and equip roles. In particular, one such 
action item was that ``Full command and control connectivity and nodal 
linkages between Air and Space Operations Centers (AOCs) and Maritime 
Operation Centers (MOCs) do not currently exist.'' Does the ASB concept 
have concerns about this capability gap that are not already 
encompassed within the future Joint Information Environment construct, 
which includes ``networked operations centers, core data centers, and a 
global identity management system with cloud-based applications and 
services''?
    General Stough. The Joint Information Environment (JIE) will 
adequately address connectivity and nodal linkages between the Air and 
Space Operations Centers and Maritime Operation Centers. The JIE 
establishes a more secure and effective information technology 
infrastructure that will enable better connectivity and communications 
between Air and Space Operations Centers (AOCs) and Maritime Operation 
Centers (MOCs). With the development of networked JIE Enterprise 
Operations Centers and core data centers under the JIE construct, there 
will also be increased capability to share information between AOCs and 
MOCs.
    In addition, the JIE provides a more seamless means of 
collaborating between these two centers as standards, procedures, 
policies and techniques are no longer Service specific, but defined and 
conducted at a true joint level. While unique command, control, 
communications and computer (C4) systems to each center would still 
potentially pose a capability gap, the JIE enhances the overall fusion 
of joint C4 systems by ensuring the visibility and accessibility of 
data to improve operations.
    To specifically address the Services' responsibilities in training 
for the Air Sea Battle, the JSJ7 Deputy Directorate for Joint 
Environment is moving to provide an accurate replication of the Joint 
Information Environment (JIE) construct to enable distributed training. 
The Joint Staff and the Services will be compliant with the JIE 
construct for Joint Force Development activities, enhancing overall ASB 
strategy efforts.
    Mr. Langevin. Training in the complex environments of the future is 
a huge challenge that I know has been an issue for some time--
particularly the ability to integrate cyber and EW. While certainly 
there have been some strides in the generation of those training 
capabilities, I think we would all agree that the status quo is not 
adequate. What does ASB add to the services' current efforts to create 
that ability? What was the current joint planning environment unable to 
provide?
    General Stough. The Joint Staff defers to the ASB Office to answer 
this question.
    Mr. Langevin. As I look at the Air-Sea Battle strategy, I don't see 
a lot that is fundamentally new--in most cases this is activity and 
thought that has been ongoing for some time.
    What changed to merit the creation of the ASB office, and what 
about the current joint structure was inadequate? In other words, what 
is the secret sauce that ASB is providing that no one else can, and why 
wasn't it already being done?
    General Jones. Anti-access and area denial capabilities and 
strategies are not new. The objective to deny an adversary both access 
and the ability to maneuver remain timeless precepts of warfare. What 
is different now is that technological advances and proliferation of 
A2/AD capabilities threaten stability by empowering potential 
adversaries with previously unattainable military capabilities. A new 
generation of cruise, ballistic, air-to-air, and surface-to-air 
missiles with improved range, accuracy, and lethality is being produced 
and proliferated. Modern submarines and fighter aircraft are entering 
the militaries of many nations, while sea mines are being equipped with 
mobility, discrimination and autonomy. Both space and cyberspace are 
becoming increasingly important and contested. The pervasiveness and 
advancement of computer technology and reliance on the internet and 
usable networks are creating means and opportunity for computer network 
attack by numerous state and non-state aggressors, and the domain of 
space is now integral to such military capabilities as communications, 
surveillance, and positioning. In certain scenarios, even low-tech 
capabilities, such as rudimentary sea mines, fast-attack small craft, 
or shorter range artillery and missile systems render transit into and 
through the commons vulnerable to interdiction by coercive, aggressive 
actors, slowing or stopping free movement. The range and scale of 
possible effects from these capabilities presents a military problem 
set that threatens the U.S. and allied warfare model of power 
projection and maneuver. We have taken our collective eye off these 
developments, mainly because U.S. and allied forces have enjoyed 
uncontested freedom of combined action in the air, sea, space, and 
cyber domains for more than a generation. Going forward, we anticipate 
adversaries will actively oppose deployment and sustainment of our 
joint forces.
    In response to this changing environment, Secretary of Defense 
Robert M. Gates, directed the Departments of the Navy and the Air Force 
to address this challenge and develop a new operational concept.
    Mr. Langevin. The ASB office exists within a very crowded 
organizational construct--CAPE, AT&L, the Joint Staff, and the JROC, 
among others. How do the services assess the roles and functions of the 
ASB office in relation to the service-specific and joint organizational 
constructs? What happens if the ASB office and the joint staff, the 
combatant commanders, or the services disagree?
    General Jones. The Services view the Air-Sea Battle (ASB) Office as 
one of several valuable complementary perspectives that inform and 
enhance individual service viewpoints and encourages multi-Service 
cooperation in force development activities such as wargaming, 
experimentation, and exercises.
    Any disagreement would be raised to the appropriate level in the 
respective chain of command, starting with the ASB Senior Steering 
Group (2-star) and the ASB Executive Committee (3-star) as outlined in 
our Memorandum of Understanding.
    It is important to note that the ASB Office meets routinely with 
the Joint Staff and Combatant Command staffs and their components to 
discuss initiatives, receive input, and coordinate future activity. In 
addition, the Joint Staff J7 attends the ASB Senior Steering Group 
meetings. This has greatly helped to avoid disagreements and disputes 
over roles and functions.
    Mr. Langevin. What authorities does the office have in the 
planning, programming, budgeting, and execution process, and does this 
include authority with regard to research and development investments?
    Can you provide some concrete examples of how the ASB office has 
affected service budget priorities that otherwise would have been 
substantially different? I bring this up as the ASB concept seems to 
place a heavy premium on certain asymmetric or next-generation 
capabilities--undersea warfare capabilities such as the Virginia-class 
and Virginia Payload Module, advanced EW, full integration of cyber 
fires, next-generation weapons such as directed energy and rail guns, 
and durable space capabilities, among others. I would say that the 
services and the joint staff already recognize the value of these 
capabilities, and they are appropriately budgeting for them, broadly 
speaking, given the current fiscal constraints.
    General Jones. The Air-Sea Battle (ASB) Office has no authorities 
in the development of the Services' budget. The ASB Office provides a 
complementary perspective to the analyses conducted by the Services. 
This additional perspective informs and enhances planning, communicates 
individual service viewpoints, encourages increased Service 
collaboration, and acts as a touchstone for Service resource sponsors 
and programmers to use in their established deliberations. ASB 
recommendations have been well aligned with Service emphasis areas and 
have had particular impact shaping training, exercises, and wargames 
where the ASB Concept are tested and evaluated for incorporation into 
operational and strategic planning.
    Mr. Langevin. The Air-Sea Battle (ASB) Office recommended that each 
of the services needs to continue to implement specific actions within 
their organization, train and equip roles. In particular, one such 
action item was that ``Full command and control connectivity and nodal 
linkages between Air and Space Operations Centers (AOCs) and Maritime 
Operation Centers (MOCs) do not currently exist.'' Does the ASB concept 
have concerns about this capability gap that are not already 
encompassed within the future Joint Information Environment construct, 
which includes ``networked operations centers, core data centers, and a 
global identity management system with cloud-based applications and 
services''?
    General Jones. The only concern that is not already encompassed 
within the future Joint Information Environment construct is integrated 
AOC/MOC training. Examining opportunities to develop joint training and 
exercises that integrate AOC and MOC operations on a habitual basis to 
form permanent relationships between the two communities is relevant to 
DOD and the Air-Sea Battle Office is engaging in those areas. The 
training should seek to proliferate the best practices as Tactics, 
Techniques, and Procedures (TTPs) that can be used or adapted across 
Service and Unified Command lines.
    Mr. Langevin. Training in the complex environments of the future is 
a huge challenge that I know has been an issue for some time--
particularly the ability to integrate cyber and EW. While certainly 
there have been some strides in the generation of those training 
capabilities, I think we would all agree that the status quo is not 
adequate. What does ASB add to the services' current efforts to create 
that ability? What was the current joint planning environment unable to 
provide?
    General Jones. All modern military operations are heavily reliant 
on the use of cyberspace and the electromagnetic spectrum (EMS). The 
Air Sea Battle (ASB) Concept and each of the Services assume that these 
will be increasingly challenged by sophisticated anti-access/area 
denial (A2/AD)-capable adversaries. The ASB Office maintains awareness 
of ongoing Service actions to mitigate those challenges and improve the 
ability of the Joint Force to operate in the presence of these threats. 
The ASB Office established working groups comprised of subject matter 
experts from across the Services in both Electronic Warfare and 
Cyberspace Operations, among others. During January 2014, the ASB 
Office will convene its annual planning workshop as part of the FY14 
ASB Implementation Master Plan activities. During this workshop, 
participants will review and organize the planned exercise, 
experimentation, training, etc., activities within each of the Services 
in order to determine the collective ``roadmap'' toward improvements in 
capabilities in the presence of A2/AD threats. The Working Group 
participants will draw from their expertise to make recommendations on 
improvements to existing activities, and identify any additional 
activities that will be provided back to the Services through existing 
lines of communication.
    Mr. Langevin. The ASB office exists within a very crowded 
organizational construct--CAPE, AT&L, the Joint Staff, and the JROC, 
among others. How do the services assess the roles and functions of the 
ASB office in relation to the service-specific and joint organizational 
constructs? What happens if the ASB office and the joint staff, the 
combatant commanders, or the services disagree?
    General Killea. The Services view the Air-Sea Battle (ASB) Office 
as one of several valuable forums and complementary perspectives that 
help inform and enhance individual service viewpoints and encourage 
multi-Service cooperation in force development activities such as 
wargaming, experimentation, and exercises.
    Any disagreement would be raised to the appropriate level in the 
respective chain of command, starting with the ASB Senior Steering 
Group (2-star) and the ASB Executive Committee (3-star) as outlined in 
our Memorandum of Understanding.
    It is important to note that the ASB Office meets routinely with 
the Joint Staff and Combatant Command staffs and their components to 
discuss initiatives, receive input, and coordinate future activity. 
This has greatly helped to avoid disagreements and disputes over roles 
and functions.
    Mr. Langevin. What authorities does the office have in the 
planning, programming, budgeting, and execution process, and does this 
include authority with regard to research and development investments?
    Can you provide some concrete examples of how the ASB office has 
affected service budget priorities that otherwise would have been 
substantially different? I bring this up as the ASB concept seems to 
place a heavy premium on certain asymmetric or next-generation 
capabilities--undersea warfare capabilities such as the Virginia-class 
and Virginia Payload Module, advanced EW, full integration of cyber 
fires, next-generation weapons such as directed energy and rail guns, 
and durable space capabilities, among others. I would say that the 
services and the joint staff already recognize the value of these 
capabilities, and they are appropriately budgeting for them, broadly 
speaking, given the current fiscal constraints.
    General Killea. The Air-Sea Battle (ASB) Office has no authorities 
in the development of the Services' budget. The ASB Office provides a 
complementary perspective to the analyses conducted by the Services. 
This additional perspective informs and enhances planning, communicates 
individual service viewpoints, encourages increased Service 
collaboration, and acts as a touchstone for Service resource sponsors 
and programmers to use in their established deliberations. Some of ASB 
recommendations have been aligned with various Service emphasis areas 
and have shaped some training, exercises, and wargames.
    Mr. Langevin. Training in the complex environments of the future is 
a huge challenge that I know has been an issue for some time--
particularly the ability to integrate cyber and EW. While certainly 
there have been some strides in the generation of those training 
capabilities, I think we would all agree that the status quo is not 
adequate. What does ASB add to the services' current efforts to create 
that ability? What was the current joint planning environment unable to 
provide?
    General Killea. All modern military operations are heavily reliant 
on the use of cyberspace and the electromagnetic spectrum (EMS). The 
Air Sea Battle (ASB) Concept and each of the Services assume that these 
will be increasingly challenged by sophisticated anti-access/area 
denial (A2/AD)-capable adversaries. The ASB Office maintains awareness 
of ongoing Service actions to mitigate those challenges and improve the 
ability of the Joint Force to operate in the presence of these threats. 
The ASB Office established working groups comprised of subject matter 
experts from across the Services in both Electronic Warfare and 
Cyberspace Operations, among others. During January 2014, the ASB 
Office will convene its annual planning workshop as part of the FY14 
ASB Implementation Master Plan activities. During this workshop, 
participants will review and organize the planned exercise, 
experimentation, training, etc., activities within each of the Services 
in order to determine the collective ``roadmap'' toward improvements in 
capabilities in the presence of A2/AD threats. The Working Group 
participants will draw from their expertise to make recommendations on 
improvements to existing activities, and identify any additional 
activities that will be provided back to the Services through existing 
lines of communication.
    Mr. Langevin. The ASB office exists within a very crowded 
organizational construct--CAPE, AT&L, the Joint Staff, and the JROC, 
among others. How do the services assess the roles and functions of the 
ASB office in relation to the service-specific and joint organizational 
constructs? What happens if the ASB office and the joint staff, the 
combatant commanders, or the services disagree?
    General Cheek. The Services view the Air-Sea Battle (ASB) office as 
one of several complementary perspectives that inform and enhance 
individual service viewpoints and encourages multi-Service cooperation 
in force development activities such as wargaming, experimentation, and 
exercises. Any disagreement would be raised to the appropriate level in 
the respective chain of command, starting with the ASB Senior Steering 
Group (2-star) and the ASB Executive Committee (3-star) as outlined in 
our Memorandum of Understanding. The ASB office also meets with the 
Joint Staff and Combatant Command staffs and their components to 
discuss initiatives, receive input, and coordinate future activity 
within existing processes. This has greatly helped to avoid 
disagreements and disputes over roles and functions.
    Mr. Langevin. What authorities does the office have in the 
planning, programming, budgeting, and execution process, and does this 
include authority with regard to research and development investments?
    Can you provide some concrete examples of how the ASB office has 
affected service budget priorities that otherwise would have been 
substantially different? I bring this up as the ASB concept seems to 
place a heavy premium on certain asymmetric or next-generation 
capabilities--undersea warfare capabilities such as the Virginia-class 
and Virginia Payload Module, advanced EW, full integration of cyber 
fires, next-generation weapons such as directed energy and rail guns, 
and durable space capabilities, among others. I would say that the 
services and the joint staff already recognize the value of these 
capabilities, and they are appropriately budgeting for them, broadly 
speaking, given the current fiscal constraints.
    General Cheek. The Air-Sea Battle (ASB) office has no authorities 
in the development of the Services' budget. The ASB office provides a 
complementary perspective to the analyses conducted by the Services. 
This additional perspective informs and enhances planning, communicates 
individual service viewpoints, encourages increased Service 
collaboration, and acts as a touchstone for Service resource sponsors 
and programmers to use in their established deliberations. ASB 
recommendations have been well aligned with Service emphasis areas and 
have had particular impact shaping training, exercises, and wargames 
where the ASB Concept are tested and evaluated for incorporation into 
operational and strategic planning.
    Mr. Langevin. Training in the complex environments of the future is 
a huge challenge that I know has been an issue for some time--
particularly the ability to integrate cyber and EW. While certainly 
there have been some strides in the generation of those training 
capabilities, I think we would all agree that the status quo is not 
adequate. What does ASB add to the services' current efforts to create 
that ability? What was the current joint planning environment unable to 
provide?
    General Cheek. All modern military operations are heavily reliant 
on the use of cyberspace and the electromagnetic spectrum (EMS). The 
Air Sea Battle (ASB) Concept and each of the Services assume that these 
will be increasingly challenged by sophisticated anti-access/area 
denial (A2/AD)-capable adversaries. The ASB office maintains awareness 
of ongoing Service actions to mitigate those challenges and improve the 
ability of the Joint Force to operate in the presence of these threats. 
The ASB office is again establishing working groups comprised of 
subject matter experts from across the Services in both Electronic 
Warfare and Cyberspace Operations, among others, in support of its 
annual planning workshop to be held in January 2014 as part of the FY14 
ASB Implementation Master Plan activities. During this workshop, 
participants will review and organize the planned exercise, 
experimentation, training, etc., activities within each of the Services 
in order to determine the collective ``roadmap'' toward improvements in 
capabilities in the presence of A2/AD threats. The Working Group 
participants will draw from their expertise to make recommendations on 
improvements to existing activities, and identify any additional 
activities that will be provided back to the Services through existing 
lines of communication.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
